<html>
<title> - WHAT IF ISABEL MET TRACTOR MAN? A POST-HURRICANE REASSESSMENT OF EMER- GENCY READINESS IN THE CAPITAL REGION</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]




   WHAT IF ISABEL MET TRACTOR MAN? A POST-HURRICANE REASSESSMENT OF 
               EMERGENCY READINESS IN THE CAPITAL REGION

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 3, 2003

                               __________

                           Serial No. 108-89

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

83-959              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
JOHN SULLIVAN, Oklahoma              C.A. ``DUTCH'' RUPPERSBERGER, 
NATHAN DEAL, Georgia                     Maryland
CANDICE S. MILLER, Michigan          ELEANOR HOLMES NORTON, District of 
TIM MURPHY, Pennsylvania                 Columbia
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN R. CARTER, Texas                CHRIS BELL, Texas
WILLIAM J. JANKLOW, South Dakota                 ------
MARSHA BLACKBURN, Tennessee          BERNARD SANDERS, Vermont 
                                         (Independent)

                       Peter Sirh, Staff Director
                 Melissa Wojciak, Deputy Staff Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
              Philip M. Schiliro, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on October 3, 2003..................................     1
Statement of:
    Marshall, John, secretary of public safety, Commonwealth of 
      Virginia; Dennis R. Schrader, director for the Governor's 
      Office of Homeland Security, State of Maryland; and Peter 
      G. LaPorte, director, Emergency Management Agency, District 
      of Columbia................................................    32
    Tolbert, Eric, Director of the Response Division, Federal 
      Emergency Management Agency, U.S. Department of Homeland 
      Security...................................................    17
    White, Richard, chief executive officer, Washington 
      Metropolitan Area Transit Authority; William J. Sim, 
      president, Pepco; Admiral Jay Johnson, president and CEO of 
      Dominion Virginia Power; Jerry N. Johnson, general manager, 
      D.C. Water and Sewer Authority; Charlie C. Crowder, Jr., 
      general manager, Fairfax County Water Authority, 
      accompanied by James A. Warfield, Jr., executive officer; 
      and Leslie A. Violette, treasurer, Belle View Condominium 
      Unit Owners Association Community..........................    70
Letters, statements, etc., submitted for the record by:
    Crowder, Charlie C., Jr., general manager, Fairfax County 
      Water Authority, prepared statement of.....................   104
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............   133
    Davis, Chairman Tom, a Representative in Congress from the 
      State of Virginia, prepared statement of...................     4
    Johnson, Admiral Jay, president and CEO of Dominion Virginia 
      Power, prepared statement of...............................    92
    Johnson, Jerry N., general manager, D.C. Water and Sewer 
      Authority, prepared statement of...........................   112
    LaPorte, Peter G., director, Emergency Management Agency, 
      District of Columbia, prepared statement of................    55
    Marshall, John, secretary of public safety, Commonwealth of 
      Virginia, prepared statement of............................    36
    Moran, Hon. James P., a Representative in Congress from the 
      State of Virginia, prepared statement of...................    11
    Norton, Hon. Eleanor Holmes, a Delegate in Congress from the 
      District of Columbia, prepared statement of................     7
    Schrader, Dennis R., director for the Governor's Office of 
      Homeland Security, State of Maryland, prepared statement of    45
    Sim, William J., president, Pepco, prepared statement of.....    83
    Tolbert, Eric, Director of the Response Division, Federal 
      Emergency Management Agency, U.S. Department of Homeland 
      Security, prepared statement of............................    19
    Violette, Leslie A., treasurer, Belle View Condominium Unit 
      Owners Association Community, prepared statement of........   119
    White, Richard, chief executive officer, Washington 
      Metropolitan Area Transit Authority, prepared statement of.    73

 
 WHAT IF ISABEL MET TRACTOR MAN? A POST-HURRICANE REASSESSMENT OF EMER-
                 GENCY READINESS IN THE CAPITAL REGION

                              ----------                              


                        FRIDAY, OCTOBER 3, 2003

                          House of Representatives,
                            Committee on Government Reform,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 a.m., in room 
2154, Rayburn House Office Building, Hon. Tom Davis (chairman 
of the committee) presiding.
    Present: Representatives Tom Davis, Norton, and Van Hollen.
    Also present: Representative Moran of Virginia.
    Staff present: Peter Sirh, staff director; Melissa Wojciak, 
deputy staff director; John Hunter, counsel; Robert Borden, 
counsel/parliamentarian; David Marin, director of 
communications; John Cuaderes, senior professional staff 
member; Teresa Austin, chief clerk; Brien Beattie, deputy 
clerk; Shalley Kim, legislative assistant; Rosalind Parker, 
minority counsel; Earley Green, minority chief clerk; Jean 
Gosa, minority assistant clerk; and Cecelia Morton, minority 
office manager.
    Chairman Tom Davis. The committee will come to order. I 
would like to welcome everybody to today's hearing on emergency 
readiness in the National Capital Region.
    Our region faces unique challenges when it comes to crisis 
preparation and response planning. There is a multitude of 
local, State and Federal agencies that need to work in unison. 
There is the traffic gridlock that plagues us even under the 
best of circumstances. There is the fact that the Capitol is a 
massive bull's eye for those who seek to do us harm.
    This is a followup to the hearing our committee held on 
April 10, 2003, examining the state of emergency preparedness 
in the Nation's Capital. At that time, the infamous ``tractor 
man'' standoff and a spate of snowstorms provided the hearing's 
backdrop. Today, our response to Hurricane Isabel offers 
another opportunity to reassess our region's readiness for 
potential disasters of all types.
    Experience is the best teacher. Obviously, hindsight is 20/
20. We are not here to attack or condemn or embarrass anybody; 
we are just trying to have a frank, honest discussion about 
what happened and what we can learn. But it is my hope that 
together we can use the latest crisis to better prepare for 
whatever challenges the future may hold.
    We need to find out what worked and what didn't and why. 
How were decisions made? What procedures are in place to assess 
the situation retrospectively? What implications are there for 
regional preparedness as a whole in terms of transportation, 
power, water, and evacuation procedures? How were residents and 
businesses kept informed before, during and after the 
hurricane? The bottom line: How can the region better prepare 
and respond in the future?
    Emergency preparedness is, by its very nature, a 
hypothetical exercise, one in which we take what we know and 
craft a plan to respond to the unknown. So, while somewhat 
tongue in cheek, out title today, ``What if Isabel met Tractor 
Man?''--is really meant as a serious hypothetical. Are we ready 
to respond if a storm coincides with a protest? What about a 
storm coinciding with an attack on the Capital? We need to 
realize the world is watching. Just 2 days ago, for example, 
there was a Chinese television crew at a local public meeting 
on Pepco's response to the storm.
    Federal, local and State governments have taken a number of 
steps to improve the coordination of emergency preparedness 
efforts. Today, it is our hope to examine whether that 
coordination is working.
    With Isabel came debatable public transportation decisions, 
widespread power outages, public health alerts, and 
neighborhood evacuations. In the wake of September 11th, 
Federal, State and local governments have been charged with 
working closely to respond to any disaster, including natural 
disasters such as Hurricane Isabel. Our question today is: 
Could we have been better prepared?
    Isabel tested many systems in the region, particularly 
transportation, electric power and water systems. Throughout 
the Capital Region, intersections contained fallen tree debris 
and malfunctioning traffic lights. Public transportation was 
shut down, including Metro, railways, and airports. Viable 
transportation is the cornerstone of ensuring the region's 
ability to react and respond effectively to any emergency.
    The region had an unprecedented number of power outages. 
Over a million customers are estimated to have lost power--
129,000 in the District, 360,000 in northern Virginia, and 
486,000 in Maryland. It took more than a week for utility 
companies to restore power to all customers. Residents and 
public officials have complained that it simply took too long.
    There were problems with water and sewer plants which 
resulted in the public health alert in Fairfax County. 
Residents were told to boil water when the systems used to 
power the plants lost electricity.
    Meteorologists were tracking Isabel days before. This 
wasn't a surprise attack. We have to ask, in case of a 
terrorist attack, how well prepared will the region be? I hope 
that, by the end of this hearing, the committee will have a 
good picture of the cleanup efforts in the National Capital 
Area, what was learned from the devastation of Hurricane Isabel 
and the progress made in developing an effective emergency 
preparedness program. Also, the committee hopes to find out 
what actions have been taken by the Federal Government and 
local jurisdictions to craft after-action reports and, in turn, 
improve coordination, readiness, and responses for the future. 
We will also find out what, if anything, has been learned 
concerning the region's critical infrastructure and what can be 
done to keep it on line during a disaster.
    Facts don't cease to exist simply because they are ignored. 
Let's get all of the facts of what went well and what didn't go 
so well. Then we can move forward together to better protect 
the Capital Region in the future.
    I would now recognize my distinguished colleague from the 
District of Columbia, Ms. Norton, for any statements she may 
wish to make.
    [The prepared statement of Chairman Tom Davis follows:]

    [GRAPHIC] [TIFF OMITTED] T1135.001
    
    [GRAPHIC] [TIFF OMITTED] T1135.002
    
    Ms. Norton. Thank you, Mr. Chairman. And I want to 
specifically thank the chairman for calling today's hearing and 
for its more complex and, I believe, more useful framework for 
viewing recent disturbances in our region. I believe that this 
hearing has the potential to help us connect dots we perhaps 
didn't even recognize were there. Within the last 2 years, our 
region has been caught by surprise and unprepared three times. 
The most tragic was September 11 and the Pentagon catastrophe. 
The most absurd was the Tractor Man episode that paralyzed 
downtown. The most unavoidable was Hurricane Isabel that 
whistled through loudly and destructively 2 weeks ago.
    I believe it would be a mistake to think that these three 
disasters have nothing in common. To be sure, September 11 was 
a terrorist disaster, Isabel was a natural disaster and Tractor 
Man was a man-made disaster. Except for Isabel, prevention 
remains an arguable issue, but surely it was possible to 
prepare for all three. No one can be expected to control future 
events, but we all have an obligation to take the necessary 
preparations to mitigate the damage and hasten the return to 
normalcy.
    As a matter of preparation, all three of these events have 
much in common, I believe. There is no such thing as a generic 
disaster. But these three disasters raise the possibility that 
there may be generic preparations that can be tailored to 
specific events. Many of the vital actors will be the same, for 
example, elected officials, public safety and emergency safety 
personnel, medical personnel, and transportation authorities. 
Many of the methods that must be used, particularly 
coordination and communication, also will be the same or 
similar.
    Since September 11, our region has been putting in place 
procedures and protections against the unknown. Surely the 
painstaking preparation for a terrorist attack has carryover 
that can help us learn how to achieve better coordination and 
to get quicker riddance of Tractor Man or quicker recovery and 
cleanup from Isabel and their unknown progeny yet to come.
    I hope that today's hearing can promote such thinking and 
action. If September 11 did nothing else, it may have moved us 
to a day when we can be prepared for almost anything.
    Thank you, Mr. Chairman.
    [The prepared statement of Hon. Eleanor Holmes Norton 
follows:]

[GRAPHIC] [TIFF OMITTED] T1135.003

    Chairman Tom Davis. Thank you very much. I also see my 
distinguished colleague and neighbor in northern Virginia, Mr. 
Moran, is here with us. Jim, welcome.
    Mr. Moran. Thank you, Mr. Chairman. It is nice to be with 
you and Eleanor. I appreciate being invited to participate in 
this hearing. I think it is important for the whole region and 
to a great many of our residents because it is going to shed 
light on how we can better prepare for future emergencies and 
situations like these that we have been faced with over the 
last several months.
    As my colleagues mentioned, last April it was Tractor Man 
and how we can better react to a situation like that. At that 
hearing, we learned that we could have done a better job 
coordinating responses between the Federal Government and 
localities. We also learned that if a tobacco farmer in a 
tractor can bring this region to a standstill, which he did, 
just think of what a hazardous chemical spill or, heaven 
forbid, a terrorist attack directly on the Nation's Capital 
could do.
    Last winter we had Mother Nature hit us with mounds of snow 
and sheets of ice, crippling the region and testing our ability 
to respond to inclement weather. After the snow and ice had 
melted, we all said we needed to reassess our response to 
natural emergencies and establish better procedures. Yet, here 
we are again talking about how this region can better prepare 
and recover from a situation that again brought the region to a 
halt. No doubt, Hurricane Isabel was a Category 3 hurricane 
that packed a punch this region hasn't seen since Hurricane 
Floyd. For the most part, we were prepared and ready for the 
storm.
    Our firefighters, police officers and other emergency 
responders were selfless in their service to our residents. And 
their efforts saved lives, prevented injuries, and protected 
millions of dollars' worth of real estate and property from 
being damaged even more by the storm. These emergency 
responders must have the resources they need to perform their 
jobs, and I think it is a responsibility of the Federal 
Government to assist States and localities in securing those 
investments in our public safety departments around the 
country.
    I do have concerns, however, that we may have overreacted a 
bit about some issues and underreacted to other problems 
brought on by the storm's fury. The National Weather Service, 
for example, offered the best forecast they could; and 
accordingly, Metro and the Office of Personnel Management were 
guided in their decisionmaking by their interpretation of the 
National Weather Service forecast. But Metro's decision to shut 
down service at 11 a.m., prompting the Federal Government to 
shut down on Thursday, September 18th, does not seem to have 
been a well-thought-out decision. Or was it? Well, that is what 
we need to look into, the process and considerations that went 
into making that decision. But when Metro decided to shut down 
and the Federal Government decided to follow suit, it created a 
ripple effect that cost taxpayers about $70 million on that 
day. Meanwhile, area businesses lost millions of dollars in 
lost productivity because most businesses in the region take 
OPM's lead in deciding how to react to emergencies. And yet 
nothing happened until considerably later in the afternoon, and 
we would have had plenty of time, for example, if the Federal 
Government had simply said, ``We will let you leave 2 hours 
early,'' instead of shutting down the whole day.
    After Hurricane Isabel came through, she left a path of 
devastation in select areas of the region. My district was one 
of the most affected. Businesses and residences throughout Old 
Town Alexandria and the Belle View and new Alexandria sections 
of Fairfax County were completely flooded when the Potomac 
River spilled over its banks. In the Belle View Shopping 
Center, some family businesses were wiped out by the storm, 
either by its flooding or by the amount of money that they lost 
due to damage and recovery repairs.
    One particular business in that shopping center literally 
lost absolutely everything as a result of the hurricane, Dishes 
of India. It was a small, successful, Indian cuisine restaurant 
in the basement of the shopping center. It had been the 
lifelong dream of its owner. He and his family had saved for 
more than 7 years to open up the restaurant. When the storm 
came, the water rushed into the back, into the kitchen, filled 
up the restaurant up to the ceiling. When I walked through the 
restaurant with them a week after the storm, workers were still 
trying to get water out of the basement; the damage will take 
months to repair. That family cannot recover unless there is 
some Federal help through the Small Business Administration and 
FEMA.
    Many northern Virginians had smaller scale, but no less 
traumatic experiences. As we will hear later, Belle View 
Condominiums; 65 buildings were all flooded, all lost their 
boilers; there are 17 homes now uninhabitable. They all lost 
the belongings that they had kept in their basements, but even 
on the first floor, most anything of value was destroyed. The 
insurance companies say they will only take care of the 
building itself, no insurance for the contents even though they 
had flood insurance. So you have to ask, can Fairfax County 
have been better prepared for the flooding? Is there something 
we could have done to prevent, or at least alerted residents 
sooner that 9\1/2\ feet of water was going to spill into their 
neighborhood? We want to get some answers to that.
    One of the biggest complaints we have heard was with regard 
to electricity being out for days, because residents weren't 
given accurate information. Compared to Pepco, Dominion 
Virginia Power did a decent job of getting the lights back on. 
But there is more that both companies could do in that regard. 
We live in a country where our daily lives depend on 
electricity. Our power companies have to ensure that the lights 
are going to stay on regardless of the weather, and residents 
need to know, if the power goes out, when service is likely to 
be restored, and not be given a song and dance leading them to 
believe it is going to be the next day, when it is 4 days 
later. Sixty-nine percent of Dominion's northern Virginia 
customers had their power knocked out, with 1.8 million out of 
2.2 million customers without power. Close to half a million 
homes in northern Virginia were affected. It was good for me, 
because I had my power out as well, so when people would call 
your house and go on and on about the fact that they thought 
preference was being given, it was helpful to be able to say, 
``No, ma'am, I don't have power either.'' But the fact is, we 
all need to figure out a way, because we are just too dependent 
upon power. And I know that the power companies are going to 
pass on the cost of the storm in rate increases to their 
customers. I am not sure that is an appropriate or wise move, 
but I think we need to look into it.
    I also think that the Department of Homeland Security needs 
to perhaps broaden its responsibilities a bit to deal somewhat 
better with this situation. I appreciate what FEMA did, 
particularly in Alexandria and in the Belle View area. But FEMA 
announced then that they would go door to door. They had 
contract people go door to door. And they eventually, a week 
later, set up a disaster recovery center. But their people, 
contract people from States well to the south of Virginia, were 
brought up. They had to stay in a hotel in Manassas, and it was 
about an hour away, so 2 hours of driving to come up to that 
neighborhood. You know, they weren't particularly accessible. 
That is not their problem.
    But there are a lot of things that we can do to improve the 
responsiveness; and while I don't fault any individual, I do 
think institutionally there are things that we can do. That is 
why this hearing is so important.
    With that, Mr. Chairman, again, I thank you for enabling me 
to participate.
    [The prepared statement of Hon. James P. Moran follows:]

    [GRAPHIC] [TIFF OMITTED] T1135.081
    
    [GRAPHIC] [TIFF OMITTED] T1135.082
    
    [GRAPHIC] [TIFF OMITTED] T1135.083
    
    [GRAPHIC] [TIFF OMITTED] T1135.084
    
    Chairman Tom Davis. Well, thank you very much.
    The gentleman from Maryland, Mr. Van Hollen. Any opening 
statement?
    Mr. Van Hollen. Thank you, Mr. Chairman. And thank you for 
holding these hearings on lessons that we can learn in our 
region in the aftermath of Hurricane Isabel and how those 
lessons might be applied to other situations we may confront in 
the future, whether they are hurricanes or other types of 
disasters in the region.
    I am going to focus on the hurricane response and the 
portion of it that most dramatically impacted upon my 
constituents, which was the long power outages. And I 
appreciate the fact that the head of Pepco, Bill Sim, is here 
and is going to be testifying later. I also appreciate the fact 
that Pepco has decided to hire James Lee Witt to come in and do 
a thorough investigation of this situation. As the chief 
executive of Pepco Holdings said recently, ``It is clear 
customers have lost confidence in us. That is not something 
that we take lightly. We think it is appropriate to bring in 
Mr. Witt to help us rebuild that confidence.'' I can tell you 
that from the hundreds of letters and e-mails that we received 
in our offices in a period of over a week, from people who 
would call at home and in the Washington office, in our 
district office, people have lost much faith in the ability of 
Pepco to respond. Clearly, this was a huge storm of proportions 
that we have not seen in this region for a long time. It was 
the biggest storm to strike while Pepco was providing service. 
It was a monumental task.
    I hope that as we go forward we will focus on four areas: 
One, what can we do up front to try and prevent such massive 
power outages in the future? Obviously we are going to have 
some power outages when we have huge hurricanes like Isabel. 
But what can we do? Tree trimming? Lines underground? Better 
ability to strengthen the infrastructure to prevent the power 
outages from being as extensive as they were in the first 
place? And as you know, this is not the first occurrence. We 
had an earlier power outage this summer that lasted for many 
customers as long as a week. So this was a double whammy for 
many people.
    Second, response preparation. When we know that there is a 
hurricane coming, or we know that we are going to be facing 
this kind of situation, what can we do to better prepare? More 
crews on the ground? From the statements and reports that I 
have read and looked at, Dominion Power was able to get many 
more crews on the ground up front. They took better advantage 
of the warnings that were in place with respect to the size of 
this hurricane on its way, and they had more people on the 
ground ready to respond more quickly. What else can we do to 
better prepare for responses?
    Third, managing the expectations of customers. Once the 
hurricane has hit, once the power is out, how can we better 
manage expectations? The first round of power outages in this 
region, Pepco took one extreme. They tried to be very specific, 
telling customers exactly when their power would go on, and 
they made an effort to do that. Unfortunately, what happened 
was, a lot of people's expectations were, ``OK, I am going to 
get my power on tomorrow; that is what I have been told. And 
when we were unable to provide that power on schedule, people 
understandably became disenchanted.'' With the second round, we 
had really the opposite extreme. People were really told, even 
before the hurricane actually hit, that we can't assure that 
your power is going to be on for more than a week later, the 
following Friday. Even as additional information became 
available as to where Pepco was going to be restoring power, 
and Pepco had good reason to believe they would be able to 
restore power--not a guarantee of a specific date, but some 
ball-park range--people were informed and that had an impact on 
their planning. So I am interested in what we can do to better 
allow people to know when their power is going to be on.
    And finally, courtesy. I know that Pepco has a terrific 
team of people. They brought in a lot of good people. But there 
are always people who, when they are on the other end of the 
phone, for instance there are always some people who forget 
that the customer on the end of the phone is frustrated. And 
there were many instances, and we got lots of reports from 
people who were--where the Pepco person on the other end of the 
line was--just brushed them off and said, you know, ``Sorry, 
too bad, we just can't do anything about your problem,'' in a 
very brusk manner without the kind of understanding of the 
frustration that people were going through when they had more 
than a week without power, sometimes more. And, finally, these 
disconnects where people would be on the phone with their 
lights off telling people on the other end, ``My lights are 
off,'' and being told, ``No, our system says your lights are 
on.'' There is nothing more frustrating than that, or being 
told that you have a live--reporting that you have a live wire 
by your house, and being told that, ``No, in fact, you don't.'' 
I mean, that kind of disconnect obviously is something that is 
of great concern to consumers.
    You know, I have lots of letters, and very thoughtful 
letters, letters that aren't just screaming and talking about 
how terrible everything is, but really documenting very clearly 
personal experiences, phone conversations, outlining them, 
specifically when they took place and what was said. So I know 
that so many people are hearing a lot of frustration from a lot 
of customers and saying, you know, everyone has to understand 
that this was a major event. And it was a major event. But at 
the same time, we all have to understand that these are people 
who were very patient for many days, and at the end of 3 or 4 
days began to lose patience, especially when they did not and 
could not get the kind of information that I think they were 
entitled to get.
    So I hope we will address those areas as we consider these 
issues. Thank you very much, Mr. Chairman.
    Chairman Tom Davis. Thank you very much.
    Our first witness is Eric Tolbert, the Director of the 
Response Division of FEMA, under the U.S. Department of 
Homeland Security.
    It is the policy of this committee that we swear you in 
before you testify, so if you would rise with me and raise your 
right hand.
    [Witness sworn.]
    Chairman Tom Davis. Thank you. Your total statement is in 
the record. It will be printed in the record. We would like to 
keep you to 5 minutes, because Members have read it and are 
ready to ask questions on that. So we have a light in front. It 
will turn orange or yellow after 4 minutes, and red after 5. If 
you can try to keep close to that, that would be helpful. But 
we appreciate your being here. Thank you very much.

 STATEMENT OF ERIC TOLBERT, DIRECTOR OF THE RESPONSE DIVISION, 
    FEDERAL EMERGENCY MANAGEMENT AGENCY, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Tolbert. Thank you, Mr. Chairman, and members of the 
committee. I am Eric Tolbert, Director of the Response Division 
of the Federal Emergency Management Agency, which is part of 
the Department of Homeland Security. On behalf of Secretary Tom 
Ridge and Under Secretary Mike Brown, I appreciate the 
opportunity to testify before you today on the response to 
Hurricane Isabel.
    Recovery from the disaster is ongoing, and I can assure you 
that President Bush is committed to assisting all of the 
affected States and local jurisdictions from North Carolina to 
Pennsylvania. The Department and FEMA will be there as long as 
we are needed. The level of cooperation and professionalism 
exhibited by all of the local, State and Federal personnel, the 
emergency responders, the volunteers, and the private sector 
responders has been outstanding. The American people can be 
proud of the work they are doing to help the region recover.
    Early on, we recognized that Isabel would evolve into a 
significant, multiregional response, so beginning on September 
15th, we really started stepping up our coordination and 
action-planning activities in advance of the predicted 
landfall. Our intent was to make FEMA prepared and in the best 
possible position to rapidly and effectively execute our 
disaster response operations as directed by the President and 
in support of State and local jurisdictions.
    FEMA operations were augmented by the activation of the 
Emergency Support Team, which is our interagency Federal 
response plan organization to help coordinate preparation for 
and response to the disaster. At that time, advance elements of 
the National Emergency Response Team were also dispatched to 
the field, and regularly scheduled video teleconferences were 
held with all of the East Coast States that we anticipated 
could potentially be impacted by the hurricane, all the way 
from Florida to New England. The video teleconferences allowed 
us to, first, provide storm information and predictions, 
facilitate intergovernmental coordination, develop action plans 
anticipating what the requirements would be, and coordinate 
preparations among the States, the Department of Homeland 
Security and its various elements: the FEMA headquarters, the 
White House, the Hurricane Liaison Team that we placed at the 
National Hurricane Center, our regional operations centers in 
Boston, New York, Philadelphia and Atlanta, our FEMA 
mobilization centers that were established in advance of the 
event, and the emergency support functions from all of the 
Federal agencies and departments. The Hurricane Liaison Team, 
which operated around the clock, was invaluable in coordinating 
the real-time meteorological updates and predictions from the 
National Hurricane Center, the Hydrometeorological Prediction 
Center, the Southeast River Forecast Center, the Mid-Atlantic 
Forecast Center, and other NOAA components.
    Beginning on September 15 and continuing through the post-
disaster period, video teleconferences were conducted at least 
twice daily to give the affected States and the District of 
Columbia an open line of communications and the opportunity to 
raise questions, express concerns, coordinate information and, 
most importantly, request assistance and resources to respond 
to the disaster. Advanced elements of our Emergency Response 
Teams and State liaisons were dispatched before the storm to 
the anticipated States that would be affected, and the District 
of Columbia, to coordinate disaster preparedness as well as 
response activities. I think our proactive stance allowed us to 
largely complete our preparedness activities for the storm, 
including prepositioning of initial response assets by 
Wednesday, September 17th. Action planning was initiated prior 
to and continued after the landfall of the hurricane. Our 
priorities focused on developing contingency plans for life 
support and mass care, including sheltering, feeding, and 
medical care, especially for isolated communities.
    We also focused our second priority on providing ice, 
water, generators, and electrical power for critical 
facilities, arranging for mobile feeding sites, establishing 
disaster field offices and disaster recovery centers, and 
implementing individual and public assistance activities. In 
preparation for the disaster, we continually monitored the 
availability of supplies in order to meet the immediate 
response requirements. We prepositioned advanced, what we call 
``AID Packages,'' which consisted of cots and blankets and 
emergency meals and portable toilets, plastic sheeting, bottled 
water, and generators. We mobilized our emergency response 
support assets to the States to ensure that we would have 
continuity in communications so that we could ensure the 
communications, intergovernmental communication, between the 
States. I can go on for the next 10 to 15 minutes explaining 
the prepositioned assets and the specialized teams from across 
the government that were provided in advance in anticipation of 
a landfall. And I would say that we continue today to provide 
additional response support in support of the State and local 
governments across the area.
    I would like to highlight one success--and I realize that I 
am going over--but one real success I think we worked out, that 
was a significant change, that prohibited us from being delayed 
in the response, is that in advance of landfall we had 
negotiated a policy and had a process in place for an expedited 
Stafford Act declaration by the President. So we communicated 
in advance to the Governors and to the Mayor of the District of 
Columbia the criteria under which we would entertain and 
rapidly respond to an expedited disaster declaration. Only when 
we receive that declaration can we employ Federal resources to 
support State and local governments in a disaster. And within 
hours of receiving those requests, based on our stated 
criteria, in fact those declarations did occur.
    Mr. Chairman, I appreciate the opportunity to testify 
before you today and would be happy to answer any questions 
that you may have.
    [The prepared statement of Mr. Tolbert follows:]

    [GRAPHIC] [TIFF OMITTED] T1135.004
    
    [GRAPHIC] [TIFF OMITTED] T1135.005
    
    [GRAPHIC] [TIFF OMITTED] T1135.006
    
    [GRAPHIC] [TIFF OMITTED] T1135.007
    
    [GRAPHIC] [TIFF OMITTED] T1135.008
    
    [GRAPHIC] [TIFF OMITTED] T1135.009
    
    [GRAPHIC] [TIFF OMITTED] T1135.010
    
    [GRAPHIC] [TIFF OMITTED] T1135.011
    
    Chairman Tom Davis. We have three panels, so I am going to 
move fairly quickly.
    The next panel, the State and local panel, is important, 
but let me ask you this. Would you do anything differently? Did 
you learn anything here that, in retrospect, you might have 
done differently?
    Mr. Tolbert. A key planning factor that we are revisiting--
let me say that we began our critique process, our ``hot 
washes,'' days ago. One of the key areas that we are going to 
concentrate on is more deliberate planning and collaboration 
with the States.
    The Emergency Management System is a vertical organization. 
It begins at the grass-roots level, with the municipalities and 
counties providing the baseline, initial response, and then the 
States provide supplemental response to that, and then we 
provide supplemental support to the States. There are 
inconsistencies in the division of roles and responsibilities. 
That is a planning area that we plan to focus on in our future 
emergency response planning so that we have clearly understood 
the division of responsibilities between the levels of 
government. I think that is an area that is significant for 
improvement, a vertical improvement--not just FEMA, but at the 
State and the local levels as well.
    Chairman Tom Davis. I am going to ask unanimous consent. We 
have the written testimony of Michael Byrne, who is the 
Director of the Office of National Capital Region Coordination 
for Department of Homeland Security.
    Let me ask you this. Did you work with Michael Byrne? Did 
he play any role in this with you?
    Mr. Tolbert. Yes, sir. Mr. Byrne conducted conference calls 
with the National Capital Region jurisdictions. He kept us 
apprised, and he participated with us on the video 
teleconferences with the States on a regular basis. He provided 
us real-time information and supported any requests that we 
would receive for assistance from the NCR.
    Chairman Tom Davis. Thank you.
    Ms. Norton.
    Ms. Norton. Thank you, Mr. Chairman.
    I just have a couple of questions, Mr. Tolbert. You have an 
important basis for comparison. As far as we are concerned, it 
happened to us and therefore it is very hard for us to know 
anything about the quality of our response, because the only 
way to judge that is against others.
    I would like you to rate the response to--because of your 
broad jurisdiction, because you have seen these same kinds of 
disasters in other places, I would like you to rate the 
response of the following in relation to other jurisdictions: 
transportation decisions and operations; power company 
response; and water and sewer response. So let's begin with 
transportation decisions and operations. You have seen 
hurricanes all over the United States. How would you rate the 
response of our transportation officials and operations?
    Mr. Tolbert. I haven't given that a lot of consideration. 
But based on some of your opening remarks, I did give some 
quick thought to it. I believe that the decisions made by the 
mass transit systems within the Metro area were appropriate and 
effective.
    Ms. Norton. Were you consulted on those decisions?
    Mr. Tolbert. We were consulted through the Washington area 
warning system network. We are a party to that.
    Ms. Norton. Did you agree with the decision that the Metro 
should be shut down at the time it was?
    Mr. Tolbert. Even in retrospect, I would personally concur 
with that decision. It reduced the population. It reduced the 
Federal workers within the National Capital Region. Even at 
what we call ``D minus 1,'' the day before landfall, the 
forecast was for in excess of 70-mile-per-hour winds in the 
National Capital Region, in the Washington--District of 
Columbia.
    Based on those, on those forecasts, I think it was 
appropriate; and in fact, I think it significantly reduced the 
demands on the local emergency response system.
    Ms. Norton. Do you think that they would have done that all 
over the United States? They would have just pulled the buses 
and the subways down? You are telling me that is standard 
operating procedure in other parts of the country?
    Mr. Tolbert. There are variations from jurisdiction to 
jurisdiction. But especially in areas where they cross bridges, 
it is normal for transportation systems to be closed at the 
point that they reach 40 to 45 miles per hour.
    Ms. Norton. All right. Power company responses, compared 
with other areas of the country where you have seen similar 
hurricanes and disasters.
    Mr. Tolbert. I was not at all surprised by the widespread 
power outages. It was reminiscent of Hurricane Hugo in 1989, 
where we had inland winds at hurricane force in Charlotte, NC, 
from a landfall in Charleston, SC. At that time, even with that 
storm, we had 14 days before power restoration in Charlotte, 
NC. So, as compared to other responses that I have observed 
across the country in my 20 years in this business, I would say 
that the power response was on average or on a par with what I 
normally observe.
    Ms. Norton. What about the water and sewer responses?
    Mr. Tolbert. Water and sewer response, I think, is an area 
that, from a critical infrastructure standpoint, I think is an 
area for significant improvement. The electric power grid 
impact that we had about a month ago in the Northeast again 
emphasized the importance of those critical facilities for 
humanitarian support. I think it is an area that we do need to 
concentrate on. I am not in a position to give a graded score, 
but I think it certainly illustrates a vulnerability in our 
critical infrastructure that we have known about that needs to 
be addressed.
    Ms. Norton. I thank you. One more question, if I may, Mr. 
Chairman.
    I am a member also of the Homeland Security Committee and 
have seen the consolidation of your department into that 
department. I would like to know whether it mattered that you 
were in the Department of Homeland Security. If so, how did it 
matter specifically that you were not FEMA, as you always have 
been? It looks like you were using your usual FEMA expertise. 
What did it matter that you were in this new consolidated 
department?
    Mr. Tolbert. I can speak specifically about several 
enhancements that occurred really as a result of our being 
within this larger department. We had a much more significant 
response on the part of the BICE organization, the Bureau for 
Immigration and Customs Enforcement. They provided surveillance 
aircraft for us, as well as additional rotary-wing aircraft 
that were on standby and were actually applied to support State 
and local operations.
    Ms. Norton. And that would not have been the case before?
    Mr. Tolbert. It had not been the case before. They even 
collocated with us in FEMA's Emergency Operating Center to 
ensure that we had those resources prestaged and available. 
That was to address a specific known shortfall, which was some 
of the National Guard assets that had been deployed from the 
Governors, that were not available. So we expected a rotary-
wing aircraft shortfall, and reached out to our other partners.
    The same applies to the U.S. Coast Guard, who stood up and 
provided lots of aviation assets in support of State and local 
governments, as well as our own Federal operations--highly 
effective, I think. And the critical infrastructure 
organization from the new department also collocated with us to 
provide additional intelligence, what they were getting on 
critical infrastructure failures.
    Ms. Norton. That is all new? That is all new input into 
FEMA?
    Mr. Tolbert. It is absolutely all new input.
    Ms. Norton. That is good news.
    Thank you, Mr. Chairman.
    Chairman Tom Davis. Thank you very much. Mr. Moran.
    Mr. Moran. Thanks very much, Mr. Chairman. I wanted to ask 
some questions with regard to my personal experience with the 
FEMA folks who were sent down to the southern part of Fairfax 
County, where we had 2,200 homes inundated with flooding.
    The people who went door to door were not FEMA employees; 
they were all contract people. Most of them seemed to come from 
Georgia, the Carolinas and so on, not particularly familiar 
with the neighborhood or the region. They were nice enough 
people, but there didn't seem to be many FEMA people around. Is 
that normally the way that things are done?
    Mr. Tolbert. Mr. Moran, a lot of the services that are 
provided by FEMA are, in fact, provided by contract support. 
The personnel you are referring to are housing inspectors. As 
victims call the FEMA hotline for tele-registration and we 
identify that there are housing impacts, we dispatch contract 
inspectors to actually use a handheld computer to document and 
record the damages and the type of assistance that is required. 
Those personnel are provided through contract support.
    FEMA is an organization of about--roughly 2,500 full-time 
personnel. And most of the disaster personnel, most of the FEMA 
personnel that you see in a disaster wearing the blue coats 
with gold FEMA letters are actually our reservist cadre. We 
have about 3,500 intermittent employees that we routinely 
utilize to support large-scale disaster response and recovery 
operations. So they do come from all across the country to 
support our operations.
    Mr. Moran. I am curious as to why, when the damage that 
they were working on was in Alexandria and the part of Fairfax 
County that is called Alexandria, why they were housed in a 
hotel out in Manassas, so they had to drive for an hour to get 
to the site, and then drive back again for an hour. They did 
complain about that, although I am sure they don't want me to 
share their complaints with you but they wondered themselves. 
You couldn't find a hotel on Route 1 in Alexandria?
    Mr. Tolbert. I can't adequately respond to that specific 
question. I can tell you that it is normal for our workers to 
be displaced outside. In fact, our priority is that disaster 
victims have first option on available housing within an 
impacted area. And I suspect at that time that if there were 
large numbers of people without power they resorted to hotel 
facilities. That is very common in disasters. I can't speak 
specifically to the Fairfax County situation.
    Mr. Moran. Well, it seems petty. But the problem was, when 
they had early morning meetings--for example, I went to one 
early Saturday morning--there were no FEMA people there. But, 
on the other hand, it was at 8 a.m. They would have had to 
leave at 7 a.m. to get there. It just seemed like it might have 
been a little bit more efficient. It doesn't sound like a big 
deal, except it made them less accessible than they otherwise 
would have been.
    I think it would have been good, if I might suggest, to 
have someone that was sort of assigned to that particular 
disaster situation that could have worked with the community, 
the one person in charge, and they could go to the community 
meetings and so on. That might have been helpful. All of the 
FEMA people were nice people. But I am not sure that there was 
a person in charge; at least the residents didn't seem to get 
the sense that there was one person that they could go to and 
get the answers and who had the authority to direct anyone's 
actions.
    Mr. Tolbert. That is one of the areas that we are looking 
at, is placing liaisons down to the local level, either pre- or 
post-impact, depending on what the situation is. That is 
something that we have to coordinate very closely with the 
States, to ensure that we are not duplicating effort or causing 
any additional confusion that may exist in intergovernmental 
coordination. But that is an area under review.
    Mr. Moran. I don't think the localities would have resented 
somebody from FEMA working there side by side with them. When 
they found that all of the boilers, for example, were gone in 
these 65 multi-family buildings, I was told in the past that 
FEMA might be able to do things like set up a place where you 
could have showers, because the toxics in the water are a 
serious problem. So people, when they handle them, they really 
need to be able to shower; and yet they couldn't shower, they 
didn't have water, gas or electricity. Has FEMA ever done that? 
Actually, I have been told that they have done that in prior 
times.
    Mr. Tolbert. We do not have those as organic assets of 
FEMA. But we do have the ability to contract for portable 
shower units, and we did actually provide some. I am aware of 
requests in North Carolina for that type of service, and they 
are being provided. Also by nonprofit organizations. The 
Southern Baptist organization was providing that very service 
in Virginia on a number of visits that I observed. So it is a 
collaborative effort. We do have some contract capacity, but 
not organic capability.
    Mr. Moran. I hope it is not because we have enough Southern 
Baptists in the community to do that.
    Just one last thing. The--15 percent of the money that goes 
to a locality is to be spent on mitigation. You probably can't 
answer the question now, but I would be very interested in how 
you are going to spend that money on mitigation to reduce the 
likelihood of a flood in the future. And I understand that is 
FEMA's role.
    Mr. Tolbert. The current--I assume you are referring to the 
Hazard Mitigation Grant Program, which previously was funded at 
15 percent of the Federal investment in disaster relief. 
Current authorization is for 7.5 percent of the Federal 
investment. So that Hazard Mitigation Grant Program value, 
under current appropriation, will be at 7.5 percent, a 50 
percent reduction from the prior amount.
    Those priorities, however, are established by the State. 
The State has the responsibility for doing hazard mitigation 
planning in accordance with the Stafford Act and its amendments 
of the year 2000. So we entertain those proposals to 
demonstrate cost beneficial measures and will certainly look at 
any measure that the State submits to us.
    Mr. Moran. Thank you, sir. And thank you, Mr. Chairman.
    Chairman Tom Davis. The gentleman from Maryland. Any 
questions?
    Mr. Van Hollen. Thank you, Mr. Chairman. Just a few.
    First, there was a question from Ms. Norton with respect to 
the power companies' response to this event in this area, and 
in comparison to others. You mentioned Hurricane Hugo and the 
2-week response. I just want to make sure I understand. But 
that was a response--Hugo hit--where was the greatest impact of 
Hugo, what region?
    Mr. Tolbert. Charleston, SC.
    Mr. Van Hollen. So that is right where it was at the 
greatest force. By the time the hurricane hit this area, while 
it was a significant hurricane, it was not at the force of 
Hurricane Hugo hitting South Carolina.
    Mr. Tolbert. But in Charlotte, NC, is where I was referring 
to, 14 days after the impact it--Hurricane Hugo also made an 
inland path. And 14 days later Charlotte had final power 
restoration. So this is normal. It is a normal time line for 
disaster recovery operations for power utilities.
    Mr. Van Hollen. Well, let me ask you, you mentioned you are 
in the process of doing an assessment and evaluation. Is part 
of that assessment to look at the response of power companies 
in this region, or is that beyond the scope of your review?
    Mr. Tolbert. That is beyond the scope of our review.
    Mr. Van Hollen. OK. Now, one of the priorities, obviously, 
for power companies, when a hurricane hits and power goes out 
is to restore power to hospitals, nursing homes. And from all 
reports I heard, Pepco had a good response, and the other 
utilities may have done that as well in a good and timely 
manner.
    There is another whole group of people, though, such as 
people at home on respirators, people who need insulin and need 
to have it refrigerated, people who, in order to stay alive and 
keep their health, need electricity and power in their homes. 
And those people, I heard a lot from people in very desperate 
situations. And I wonder if FEMA has any role at all in 
providing emergency services for people who are in those kinds 
of situations?
    Mr. Tolbert. We do not normally provide that type of 
support. Our support is generally to government and nonprofit, 
critical facilities, to restore services there. We are, 
however, very concerned about the special needs population. In 
fact, during this response, we started looking at modifying 
some of our shelter supplies because we anticipated 
requirements for people with special needs.
    So we are very concerned about it. And that is an area that 
we are looking at, how we might better provide support. I think 
it is more important, though, that local governments and the 
States have mechanisms in place to identify people with special 
needs. That is one of the more difficult challenges, to first 
identify who the people are that require that support so that 
they can provide quicker contact and better support for them.
    Mr. Van Hollen. Right. No, I agree. I think that is a very 
important function of local government. During Isabel there was 
an effort to do that. Thank you, Mr. Chairman.
    Chairman Tom Davis. Thank you very much. We appreciate your 
being here and we will move on to our next panel.
    On our next panel, we have the Honorable John Marshall, the 
Secretary of Public Safety for the Commonwealth of Virginia, 
Dennis Schrader, the Director for the Governor's Office of 
Homeland Security, State of Maryland, and Peter LaPorte, the 
Director of the district of Columbia's Emergency Management 
Agency. If you will stay standing, I will swear you in.
    [Witnesses sworn.]
    Chairman Tom Davis. Mr. Marshall, since we have a Virginia 
bias on the panel, we will start with you and we will move on 
down the way. Thanks for being with us. Congratulations on your 
new job.

   STATEMENTS OF JOHN MARSHALL, SECRETARY OF PUBLIC SAFETY, 
COMMONWEALTH OF VIRGINIA; DENNIS R. SCHRADER, DIRECTOR FOR THE 
GOVERNOR'S OFFICE OF HOMELAND SECURITY, STATE OF MARYLAND; AND 
   PETER G. LaPORTE, DIRECTOR, EMERGENCY MANAGEMENT AGENCY, 
                      DISTRICT OF COLUMBIA

    Mr. Marshall. Thank you, Mr. Chairman, members of the 
committee. I appreciate the opportunity to appear here today. I 
am John Marshall, and I serve in the cabinet of Governor Mark 
Warner as Virginia's secretary of public safety. I work in 
close collaboration with our Office of Commonwealth 
Preparedness, and maintain oversight of 11 public safety 
agencies, including the State police, National Guard, and our 
Virginia Department of Emergency Management, which continues to 
coordinate our recovery efforts related to Hurricane Isabel 
between Federal, State and local authorities as well as our 
citizens.
    The impact of the hurricane continues to be felt today 
across the Commonwealth. Two weeks after the storm, efforts 
continue to ensure the full restoration of power and telephone 
service, and to promote a safe and sanitary environment. At the 
height of the disaster, nearly 2 million customers were without 
power, mainly in eastern, central and northern Virginia. 
Individuals and communities are confronted with the monumental 
task of cleaning up debris and repairing and rebuilding homes, 
businesses and public facilities. More than 6.3 million pounds 
of ice, and 1.4 million gallons of water have been distributed 
by State and Federal agencies, and this is on top of what has 
been provided by the localities.
    Hurricane Isabel entered Virginia on September 18th. The 
Commonwealth experienced sustained winds near 100 miles per 
hour, and tropical storm force winds for 29 hours. The 
hurricane produced storm surge of 5 to 8 feet along the coast 
and in the Chesapeake Bay and its tributaries. Rainfall totals 
ranged between 2 and 11 inches along its track, including in 
the National Capital Region. Damage due to wind, rain, and 
storm surge resulted in flooding, electrical outages, debris, 
damaged homes and businesses and interruption of transportation 
and other routine daily activities.
    At the height of the incident, over 18,000 residents were 
housed in 158 shelters. Local officials report that more than 
32,000 Virginians were evacuated from their homes; 99 of the 
Commonwealth's 134 cities declared local emergencies. 
Tragically, 28 people died in the Commonwealth as a result of 
Hurricane Isabel, with the majority of deaths occurring in the 
days after the storm had cleared the State. Further damages 
occurred when a series of thunderstorms and tornados came 
through the already-impacted areas of the State on September 
23rd.
    Governor Warner took a proactive approach to the impending 
hurricane by declaring a state of emergency in the Commonwealth 
on September 15th, 3 days prior to the arrival of the storm. In 
addition, on September 17th, over 24 hours in advance of the 
storm, the Governor authorized mandatory evacuation of 
designated coastal jurisdictions and low-lying areas. These 
actions may have saved hundreds of lives.
    Governor Warner requested an expedited major Presidential 
declaration that was granted to Virginia on September 18th. 
Local officials report that more than 8,000 homes and nearly 
300 businesses suffered major damage or were destroyed, coupled 
with an estimated $31 million in agricultural damage. 
Assessment efforts continue.
    Hurricane Isabel's assault on Virginia has left an 
indelible mark on the landscape and in the minds of our 
citizens. While the task of assessing both our readiness and 
performance at the local, State and Federal levels as well 
within the private sector is so important, at the present time 
Governor Warner and his administration remain focused and 
committed to ensuring that all that can be done is being done 
to address the needs of our citizens in the aftermath of this 
event.
    This committee has asked that we address four primary areas 
in the aftermath of the hurricane: the assessment of our 
decisionmaking process, implications for our regional 
preparedness, information flow, and how we can better respond 
in the future. While detailed responses to these questions can 
be found in my written testimony, in the interests of time 
constraints let me briefly address the issues.
    Governor Warner has already indicated that he will conduct 
a complete review of how the Commonwealth performed in response 
to the largest disaster in a generation. Here in the National 
Capital Region, like other areas of Virginia, many citizens 
heeded the early calls to make storm preparations by stocking 
up on water, nonperishable food and other necessities. However, 
as Virginia has avoided direct landfall or major inland impacts 
in all but a few instances in the last several decades, we must 
honestly acknowledge that many citizens did not adequately 
prepare.
    The most notable success that we had was a series of 
conference calls conducted in advance of the storm to 
coordinate actions about the closing of government, offices, 
businesses, schools, and the Federal work force, as well as 
overall storm preparations. While some may question the timing 
of the actions, the most important message is that key 
decisionmakers across the National Capital Region acted in 
unison, to make definitive decisions with the best information 
available. In addition, Governor Warner personally conducted 
conference calls with the local elected official so that our 
preparedness messages were consistent.
    In light of the widespread power disruptions that had a 
corresponding effect on drinking water systems and perishable 
food supplies, clearly the continued assessment of our critical 
infrastructures--water, power, telecommunications, and 
transportation--and their interdependency on other systems is 
critical to understanding our vulnerabilities. In this case, it 
was Mother Nature who provided the impetus. We recognize in the 
post-September 11th environment that it very easily could have 
been terrorists. With regard to the information flow, the media 
did an outstanding job of reporting the approach of the storm 
and helping those of us in State and local government to get 
important information and guidance to our citizens, and we are 
indebted to them for this valuable service.
    Given the scope and complexity of this disaster, overall we 
think information dissemination was good. That is not to say, 
though, that information flow was flawless. After the storm, 
the accuracy of information and information flow between 
private utility companies and the public was an ongoing source 
of concern. On the issue of how the region can better respond 
in the future, the Department of Homeland Security has 
established the Office of National Capital Region Coordination 
to provide assistance. Governor Warner, along with his 
counterparts, Governor Ehrlich and Mayor Williams, meet 
regularly, and among the issues they discuss are emergency 
preparedness.
    In closing, our collective responses to the problems caused 
by Hurricane Isabel have provided a real-world test of our 
preparedness thus far in the NCR. We must assess how well we 
did or did not perform at all levels of government within the 
private sector and among our citizens. We must capture and 
build on our successes as well as identify and address any 
shortcomings. The identification of problems should not be 
construed to suggest that the National Capital Region is not 
making significant improvements in readiness. This was a large 
and complex weather event that resulted in unprecedented 
problems across two-thirds of Virginia and the entire NCR. 
Sustaining focus, commitment and funding is the key to better 
preparedness for future events. We need not react and 
reorganize; rather, we must rededicate our commitment to con-
tinuing enhancements to preparedness in the National Capital 
Region.
    Thank you, Mr. Chairman.
    Chairman Tom Davis. Thank you very much.
    [The prepared statement of Mr. Marshall follows:]

    [GRAPHIC] [TIFF OMITTED] T1135.012
    
    [GRAPHIC] [TIFF OMITTED] T1135.013
    
    [GRAPHIC] [TIFF OMITTED] T1135.014
    
    [GRAPHIC] [TIFF OMITTED] T1135.015
    
    [GRAPHIC] [TIFF OMITTED] T1135.016
    
    [GRAPHIC] [TIFF OMITTED] T1135.017
    
    [GRAPHIC] [TIFF OMITTED] T1135.018
    
    Chairman Tom Davis. Mr. Schrader.
    Mr. Schrader. Thank you, Mr. Chairman. Governor Ehrlich 
sends his appreciation for your support, and asked me to send 
his best, Mr. Chairman.
    In Maryland, we have gone down the road of an all-hazards 
approach by establishing a homeland security office, and from a 
perspective of long-term sustainability and resource 
conservation, we are integrating those two efforts so that the 
way we respond to a natural disaster will be the same as we 
would respond to a man-made disaster. I am not going to read my 
remarks, they are in the record, but I did want to leave with 
you three points that I will summarize.
    Right now, we are in the recovery phase, and one of our 
major concerns is making sure that we put as much focus on the 
recovery phase as we had on the preparation phase. We are 
anticipating that the recovery is going to take several months. 
And we will begin our lessons-learned process in a deliberate 
way, probably in the early part of November. I would like to 
say that FEMA did an outstanding job of being on the ground 
very early in the process. A week before the storm actually 
came, they were there providing advice and guidance to the 
State. And afterwards they put an outstanding gentleman from 
Tacoma, WA, Bill Lokey in as the Federal coordinating officer. 
He is doing a tremendous job of integrating with our State. I 
think the biggest issue on the front end of this was the risk 
management decisions that had to be made. It is always easy to 
criticize after the fact. But the reality is we really didn't 
know how devastating this storm was going to be, and we were 
really lucky.
    Our biggest fear was that if this storm had stayed for 
another 12 hours we would have had significant rains in western 
Maryland which would have had simultaneous flooding as well as 
the situation that we experienced. So, due to the grace of God, 
we were very, very fortunate.
    The second point I wanted to make is that the National 
Capital Region process, which has been around about a year, is 
evolving in concept. The relationships are growing. You know, 
we know each other, we meet regularly, and we are making a lot 
of progress. There's a $60 million urban area security 
initiative that is being managed by the region; and I expect 
that, as we look at how we are spending those dollars going 
down the next year, the context of the readiness for the storm 
will influence the decisions.
    The last point I wanted to make was the whole issue of 
managing expectations and the communications process. The media 
turned out to be one of the best avenues for communicating. 
They did a very good job of keeping people informed and we used 
that extensively, both TV and radio. We also communicated with 
our local emergency operations centers through the weather 
service line, and we kept them informed from the State to the 
local jurisdictions. As you know, the local government is 
really on the front lines of this effort and bears most of the 
brunt of the readiness and the response process.
    The only other point I wanted to make is that our focus, of 
course, is not just the two counties, Prince George's County 
and Montgomery County, which are the typical counties referred 
to in the National Capital Region, but we also have to look at 
the commuting patterns from Anne Arundel County, Frederick 
County and southern Maryland, which are of concern to us when 
we are thinking about the National Capital Region.
    Let me close by saying the one thing that could help in the 
future as a lesson learned would be that the FEMA brought to us 
an outstanding process of using their 800 line to register 
people, but, due to the Privacy Act, they are not able to share 
those data with the local and State jurisdictions. For example, 
in Prince George's and Montgomery County, we had over 1,400 
phone calls, but it did not appear that there was a lot of 
damage, and we have been trying to figure out what those calls 
were all about. Unfortunately, they are not able to share the 
names and numbers, etc. So if in the future there was a way to 
evaluate the impact of Privacy Act on Federal sharing of 
information with local and State jurisdictions during these 
times, it would be very helpful.
    I will close there, sir.
    Chairman Tom Davis. Thank you very much.
    [The prepared statement of Mr. Schrader follows:]

    [GRAPHIC] [TIFF OMITTED] T1135.019
    
    [GRAPHIC] [TIFF OMITTED] T1135.020
    
    [GRAPHIC] [TIFF OMITTED] T1135.021
    
    [GRAPHIC] [TIFF OMITTED] T1135.022
    
    [GRAPHIC] [TIFF OMITTED] T1135.023
    
    [GRAPHIC] [TIFF OMITTED] T1135.024
    
    [GRAPHIC] [TIFF OMITTED] T1135.025
    
    [GRAPHIC] [TIFF OMITTED] T1135.026
    
    Chairman Tom Davis. Mr. LaPorte. Thanks for being with us.
    Mr. LaPorte. Good morning Mr. Chairman, Ms. Norton, members 
of the committee. I'm Peter LaPorte, director of Emergency 
Management for the District.
    A little more than a year ago I had the honor of testifying 
before the Subcommittee of the District on Columbia Committee 
on Appropriations about the District's preparedness. At that 
hearing, I detailed to the chairman, Joe Knollenberg, and the 
members of the committee the extensive work that we had done 
post September 11. I sit here today proud to explain what we've 
done to prepare ourselves, and I'm pleased to say my pride is 
not diminished at all. In fact, it is increasing. The District 
met the challenge of Hurricane Isabel and continues to prove 
itself to the citizens of the District and to the Nation. 
Today, I will not dwell on those extensive preparedness 
efforts, but I will focus on the key preparation factors that 
proved extremely beneficial pre-landfall of this hurricane.
    First, when the District drafted its response plan, it 
mirrored the Federal response plan. We were convinced that it 
would pay dividends to have those two plans match up, and we 
proved right in Isabel. We followed our response plan to the 
letter. It proved to be a touchstone of our success. The 
Federal response plan works, the District response plan works 
and they work very well together.
    Second, our investment in human resources paid off. We've 
conducted over five exercises this year alone. In fact, one of 
those exercises dovetailed exactly the track of hurricane 
Isabel. That storm, it was very much like deja vu. We have 
trained over thousands of District employees, including the 
Mayor on down, in all aspects of emergency management. I can 
say without reservation that we have some of the best-trained 
responders in the country, and we will continue that effort.
    Third, our investment in our physical plant and equipment 
was worth every dime. We have a new emergency operations center 
in the District of Columbia that was funded by a congressional 
appropriation. That operations center has really truly made a 
difference. We never lost power. We have a communications 
capability second to none. We were stable to communicate 
entirely with the region as well as a number of stakeholders at 
the local level.
    Last but not least in our preparations, investment in 
community preparedness. We've involved universities, schools, 
businesses, advisory commissioners, special interest groups, 
individual citizens in community preparedness and outreach. 
When Isabel struck, we had open lines of communication with all 
those stakeholders.
    Now let me highlight our activities prior to, during and 
immediately after the storm. We activated our crisis management 
team before the storm. Mayor Williams led the early 
decisionmaking for preparedness actions several days out. We 
staffed our operations center with competent, experienced 
emergency liaisons, including every function of our response 
plan as well as the appropriate utilities, including PEPCO, 
WASA, Washington Gas, a number of our critical leads. We 
instituted incident action planning under the incident command 
system, developing priorities that the Mayor set down and we 
shared our expectations early on with the Federal Government, 
anticipating needs before they became reality. The District 
handed out over 20,000 sandbags. That started on Monday before 
this storm hit. We asked for those sandbags on Sunday night, 
and the Corps of Engineers up in Baltimore followed through on 
that request. We pursued the Water and Sewer Authority in the 
District to clean out catch basins in low-lying areas. They 
were very active on Monday and Tuesday pre-storm. That emphasis 
in those low-lying areas certainly helped us, especially in 
those areas that flooded in August 2001. Two days before the 
storm, Mayor Williams convened a meeting with our lead response 
leaders in the District as well as the faith community, A and C 
commissioners and community leaders enlisting them to go door 
to door in certain neighborhoods in the city.
    We focused heavily on our interagency coordination of 
communications. We participated in the FEMA conference calls. 
We set up our joint information center, literally sending out 
thousands of updates on our storm on a regular basis. We worked 
closely with Metro on its deliberations to suspend services and 
the impact of the decision on the government closing and the 
public ability to move in the pre-impact phase of the storm. 
Again, we coordinated with WASA and PEPCO about potential loss 
of power and water supplies and reviewed contingency plans. We 
activated our EOC at 8 a.m. on Thursday. We did not close our 
EOC until the last person had power restored in the District of 
Columbia. The Mayor declared a public state of emergency to 
ensure that all District resources were committed to the 
response as well as paving the way for potential Federal 
assistance. We requested supplies, light towers, heavy duty 
equipment from the National Guard and the Corps of Engineers. 
We coordinated our response at the height of the storm for 
rapid recovery.
    One of the things that was very different is, we prestaged 
over 300 city employees the night of the storm at local hotels 
so on Friday morning we could hit the ground with an active 
force. We went door-to-door in some neighborhoods. We updated 
our Web site over 150 times. We had 150 crisis counselors out 
there. We had over 1,600 fallen trees or large limbs down. That 
certainly impacted traffic.
    As a result of loss of power to the residents, we supplied 
over 750,000 pounds of ice to over 21,000 employees in the 
city. Those without power we were very concerned about feeding. 
We were able to feed over 22,000 meals to over 15,000 
schoolchildren Monday, Tuesday and Wednesday post-storm when 
schools were canceled. The District's entire school system was 
down and closed on Monday. We worked aggressively with our 
schools to get them open on Tuesday, with certain targeting 
around those schools.
    I could go on and on, just like our partners in Maryland 
and Virginia, about just the preparations and response as we 
took them. Some of our biggest concerns were traffic lights and 
traffic impact. I want to thank the committee. The resources 
that the District has received has put us in a state of 
readiness that we were able to respond to this storm. Our 
preparedness will continue. A lot of lessons were learned from 
this event and other events, and we continue to strive to be a 
better prepared jurisdiction in this region. Thank you.
    [The prepared statement of Mr. LaPorte follows:]

    [GRAPHIC] [TIFF OMITTED] T1135.027
    
    [GRAPHIC] [TIFF OMITTED] T1135.028
    
    [GRAPHIC] [TIFF OMITTED] T1135.029
    
    [GRAPHIC] [TIFF OMITTED] T1135.030
    
    [GRAPHIC] [TIFF OMITTED] T1135.031
    
    [GRAPHIC] [TIFF OMITTED] T1135.032
    
    [GRAPHIC] [TIFF OMITTED] T1135.033
    
    [GRAPHIC] [TIFF OMITTED] T1135.034
    
    [GRAPHIC] [TIFF OMITTED] T1135.035
    
    Chairman Tom Davis. Thank you all very much.
    Let me ask each of you to respond. Metro closed at 11, I 
think, that day. Was that in retrospect--I mean, it is always 
easy to second-guess. What's your opinion? I mean, it did help 
get people--limit the number of employees in this city that 
needed to move out. Schools closed early. You know, the winds 
didn't come in, really, until after the school hours. From your 
perspective now, good decisions?
    Mr. LaPorte. I guess I will take the first start at this 
one. I think it was a good decision. It was deliberate. It 
was--there was a lot of discussion, and that was the important 
part, was the input around the region, and there was a public 
safety issue as well as a public transportation issue. The idea 
of the strong winds and the determination early on from the 
National Weather Service that the winds were going to arrive a 
bit early, we needed to make sure that people, if they got on 
the system, they could get home; and so, given a date certain 
or a time certain to close, that certainly impacted other 
decisionmaking and schools in the District government and the 
Federal Government. But it was a collaborative effort. So I 
think in retrospect it was the right decision. I think there 
may be a little bit more we can get from the National Weather 
Service to tie down that particular forecast, but I think in 
retrospect--and I will stand with Metro in their decision and 
for the most part believe that was the right decision.
    Chairman Tom Davis. OK.
    Mr. Schrader. Mr. Chairman, from our perspective, having 
been in the command center when that decision was being made, 
it actually was very helpful for us because we--in Maryland, we 
take our cues from what OPM is doing here in D.C. and what the 
transportation systems are doing in D.C. What was important was 
that there was decisiveness and that the decision was made. At 
that point, the storm was just beginning. We had a lot of 
uncertainty in the work force, a lot of concern about the fact 
that the winds were picking up; and people actually wanted to 
move on to not get caught in traffic jams and be vulnerable 
later that evening. So I would say the important thing is not 
so much that--what the decision was, but the fact that the 
decision was made, and it was done decisively so that we could 
take action that would follow.
    Mr. Marshall. Mr. Chairman, I would concur with my fellow 
panel members. Ultimately, that decision was one that was based 
on public safety. It's my understanding when you're talking 
about the Metro and some of the elevated rails and the 
impending wind, we've got to react accordingly to the forecast; 
and I certainly think in retrospect that was a correct decision 
and particularly when it comes to the safety of our children. 
We can't be but too safe in that regard. We certainly would not 
have wanted to see them at the bus stops or on the streets if 
those winds were to arrive as forecasted.
    Chairman Tom Davis. Was there coordination among the three 
of you on road closings and the like? I mean, it was difficult 
getting in. There wasn't a lot of traffic the day after, but as 
I was going through northern Virginia the roads were closed 
here and there, and I thought the police did a pretty good job 
routing as best they could. But in terms of which trees are 
going to be cleared first off major roadways that interlock 
with the District and Maryland, do you think that was 
coordinated? Were you all talking to each other?
    Mr. LaPorte. The coordination was outstanding, actually, 
knowing--especially northern Virginia on the national parks 
roads, Rock Creek Park, George Washington Parkway, which were 
impacted significantly. And there was a commuting challenge 
that morning, no doubt about it, especially in the District. We 
had a number of traffic signals that were out, and we required 
police officers to leave neighborhood beats, neighborhood 
patrols, to man those traffic routes. It's certainly an after-
action report for us, is our traffic systems as well as 
augmenting our police services in those intersections with 
nonpolice civilian personnel.
    Mr. Schrader. Yeah. We have MDOT in our command center. We 
actually started our command center up on Tuesday before the 
storm and were operational. Our MDOT folks are in constant 
communication. The other thing is that because of the NCR 
initiative, we all have each other's cell phones. I have 
Peter's; he has mine. George and I talk all the time, and we 
have weekly conference calls. So that is just part of the 
process so we know how to get ahold of each other and our 
staffs are working collaboratively.
    Chairman Tom Davis. Is there anything you would have done 
differently in retrospect?
    Mr. Schrader. No, I don't think so. Not at this point. 
Obviously, we are going to have detailed lessons learned, but, 
you know, for the purposes of this committee at the level that 
you're looking at, I don't think, you know, nothing that I 
would say that would be of interest.
    Mr. Marshall. With regard to overall, Mr. Chairman----
    Chairman Tom Davis. You got hit harder in the south than 
you did in northern Virginia, didn't you?
    Mr. Marshall. We sure did. You know, Mr. Chairman, training 
events are always very useful and you learn a lot from training 
events. But, unfortunately, where you really learn the lessons, 
unfortunately, is doing an actual event; and that certainly is 
the case here. We have seen a lot of success stories, as has 
been mentioned, being the proactive approach, the conference 
calls, the communication that we had here in the NCR but, in 
particular, when it comes to Virginia and the issues we need to 
look at when we do our assessment, we've got to look at the 
water issues, the ice issues, the power issues, particularly as 
they pertain to our water pumping stations. Those are all 
issues that we need to work on as if you're somebody out there 
that needs your power or needs your water or needs your ice. 
You know, it took 4 days to get the ice and the water out 
there, and certainly we need to look at working with our 
partners to see if we can do that more expeditiously in the 
future. So certainly there will be some lessons learned, but 
also we did a lot of things right.
    Chairman Tom Davis. Did we have enough ice at the end of 
the day? I mean, seeing what was coming, getting the orders in 
and everything, do you think we----
    Mr. LaPorte. From the District's standpoint, we had 
tremendous amounts of ice.
    Chairman Tom Davis. There were huge lines, I know, in 
Fairfax for people getting it, that they didn't seem to have 
enough.
    Mr. Schrader. Right from the interest of managing 
expectations, the reality is, after a couple of days, the ice 
really doesn't help because the foods going to spoil anyway. 
And, unfortunately, there is an old saying, ``No good deed goes 
unpunished.'' The power companies were providing the ice, but, 
you know, when they didn't have enough of it people were angry.
    Chairman Tom Davis. It's worse than if you didn't offer it 
almost.
    Mr. Schrader. One of the lessons learned that might be 
useful is, maybe they ought to transfer that to something like 
Wal-Mart and other chains and let them do it and stay focused.
    Chairman Tom Davis. I'm sure they'd be happy to do that. 
We'll get to the next panel. Thank you all very much. Ms. 
Norton.
    Ms. Norton. Thank you, Mr. Chairman. I'm going to ask all 
three of you in the debriefing and what I think is called for 
is a lot of self-criticism here. Because we are impressed with 
much of what was done, but an example of what I'd like to see 
you look again at is the Metro decision. And I'm the first to 
understand an act of God. I also bet you anything that this 
decision was made by liability lawyers and I can understand 
that, too. But the fact is that the domino effect here was 
colossal, and many would say that closing down Metro--and here 
I'm talking now to the State as it were--closing down Metro was 
a good decision to make and you can't hold us accountable to 
what hour in the day. Yet we need you to look at the forecast 
to see if they were off or if you were overly cautious as to 
when this would come in because all of our understanding was 
that this was set to strike in the wee hours of the next 
morning. Now, we know that God or whoever rules up there can 
come at any time he gets ready and that we could be caught 
short. But we didn't look good, and there are huge complaints 
about that decision and, of course, Metro is getting it. But we 
know good and well that if there was pressure from the three 
States not to close down that early, that there might have been 
some greater balance. I'm not going to ask you to rehearse that 
again. I'm going to ask you to be far more self-critical than I 
have heard. Yeah this is always a case of cost-benefit. That's 
how we have to rule our lives. And it seems to me that the 
jurisdictions decided that there should be no risk whatsoever. 
Again, I'm not asking you, but I am saying that I think this 
needs a far more self-critical look. And, hey, you know, it 
happened. And let me just ask you--it happened. Were there any 
deaths? Were there any injuries at all in Virginia, in Maryland 
or in the District of Columbia and, if so, how many? Surely 
that assessment can be made by now.
    Chairman Tom Davis. Mr. Marshall.
    Mr. Marshall. We have had 28 storm-related fatalities in 
Virginia.
    Chairman Tom Davis. Most of those were in the south.
    Mr. Marshall. Yes, sir.
    Mr. Schrader. We had eight. Two were traffic fatalities 
which were both alcohol-related; we had three carbon monoxide 
poisonings from folks having generators in the house; one flood 
victim up in Baltimore County and two electrical utility 
workers, one in Baltimore County and one in Prince George's 
County, who were both from out of State.
    Ms. Norton. Mr. LaPorte.
    Mr. LaPorte. We had one death related to a four-way stop 
early on Saturday morning. It was Michigan and North Capitol, 
and that's one of the things as an after action, just better 
education of both people understanding that going into that 
intersection it is a four-way stop. I think we need to push 
that further. I'd love to have some pre-made stop signs early 
on to get into those areas quickly. We had two police officers 
also injured, struck by vehicles, both somewhat minor, but it 
does reflect the fact that they are in harm's way in 
intersections, and it certainly was a challenge.
    On the decisions on the transit, I think there are some 
things that we can look at, the best practices, what are the 
wind impacts. What's the--possibly running trains that are in 
the tunnels still and underground and protected. Maybe they 
can't go that far, but it may make sense. I know the executive 
director of the Transit Authority is looking at that, and I 
know we're going to engage in those discussions, and I think we 
need to hold the light of day to every decision that was made 
because, no matter how well we did, we have to get better each 
day in this business.
    Ms. Norton. Thank you, Mr. LaPorte. Let me ask you about as 
controversial a decision as any that was made in the District 
and that was, when the storm had virtually blown many of the 
streets dry, a decision was made--and the decision seems to 
have been made in advance--to close schools Thursday and 
Friday. Now, you know you can close schools in lots of 
jurisdictions and maybe it doesn't make any difference. In this 
jurisdiction, you close down a lot. You close down people's 
breakfast, people's lunch, the only family people have. What 
bothered me, though, was that there was recrimination about the 
closing of schools. You know, the Mayor at first seemed to 
agree, then he seemed to have some concern about it. I notice 
in your testimony that, when you did open, 15 schools of 147 
had to remain closed anyway. My question is, why couldn't that 
assessment have been made so that as many of the schools as 
possible could have opened instead of closing down schools for 
2 days in a row, which means that children have 4 days in 
which--certainly 2 days in which there would have been no 
school and the problems attending that at home. And how was 
this decision made? If there were recriminations between the 
Mayor's office and the school superintendent, does that mean 
that there wasn't the kind of coordination one would have 
expected so that this decision could have been reached 
collaboratively?
    Mr. LaPorte. Additionally, they closed on Monday as well; 
and that was really a difficult issue. And the question on 
Thursday----
    Ms. Norton. Well, they weren't all closed Monday, were 
they?
    Mr. LaPorte. They were all closed on Monday.
    Ms. Norton. So Thursday, Friday and Monday.
    Mr. LaPorte. That's when we kicked in our significant 
feeding in the school areas. We fed 15,000 schoolchildren, and 
it was government employees on liberal leave. We called at 1 
a.m., on Sunday morning, Monday morning to get to staff D.C. 
General to get into a major feeding of folks. You're right. 
You're highlighting an issue that we need to continue to 
address with schools. We were in a state of emergency. Schools 
come under the purview of the Mayor of District of Columbia 
when we are in a state of emergency. The collaboration wasn't 
there. The Mayor has spoken to the school superintendent; they 
have had discussions. It is something that in our after action, 
we will amend, the District response plan to ensure that 
collaboration takes place. It was a bit frustrating for the 
District, not necessarily for Thursday and Friday. I will say 
that was a decision that was collaborative. But the decision 
Sunday night into Monday, schools weren't forthcoming with 
information regarding schools; it took a tiger team. We put 
together with schools--we went and focused with fire, police, 
public works inspections around those schools so we could get 
them open, and we were frustrated on Monday. We had to do the 
feeding. But we assured them they would be open on Tuesday, and 
they were open, and we continue to work with schools. We will 
redo our District response plan to have a school-specific 
annex, because we do not want to face this issue again.
    Ms. Norton. Could all of you tell me--Mr. Chairman, this is 
just about the food stamps coming out today. You know, 2 weeks 
later----
    Chairman Tom Davis. Let me just say, Fairfax had their 
schools open Monday, and there are many more trees in that 
jurisdiction. Other jurisdictions were open in the region, too.
    Ms. Norton. Thank you. Yes, my goodness. Final question 
among a number I want to ask, but I see we have colleagues that 
the chairman wants to certainly get to the last panel. But I do 
want to ask about the notion--because I assume this comes 
through the jurisdictions of food stamps being made available 
today for poor people and even marginally poor people. I mean, 
2 weeks later, I don't understand what--if this means 
additional food stamps. I want to know what these folks were 
doing for 2 weeks. These are the people least able to deal with 
food problems.
    Mr. LaPorte. For the District, our major disaster 
declaration--we requested a food stamp program as well as 
unemployment insurance and all of the benefits of a major 
disaster declaration. So as we received our individual family 
assistance disaster declaration we made sure our food stamp 
program was there. We've actually been giving out food stamps 
pretty regularly.
    Ms. Norton. Are you all telling me that you can't give out 
food stamps without--what is it--FEMA that tells you when you 
can in an emergency use food stamps? Do you have no authority 
of your own to use food stamps for poor people whose power is 
gone? Because that may be something that we need to look at, 
too.
    Mr. LaPorte. It was one of the challenging areas that we 
faced, so that's why we went into a significant feeding 
program. We gave out vouchers to McDonalds and Popeyes and to 
other feeding folks before we got into our feeding program.
    Ms. Norton. As long as they weren't vouchers to private 
schools, you're fine.
    Mr. LaPorte. That's exactly right. Not those kind of 
vouchers.
    Chairman Tom Davis. Those are coming, though.
    Ms. Norton. Go ahead. This is something the chairman and I 
just said we want to look into. I don't know, perhaps Maryland 
or Virginia can respond in your jurisdictions to the food stamp 
dilemma.
    Mr. Schrader. I can just tell you that our Secretary of 
Human Resources, Secretary McCabe, took an initiative to get 
more food stamps out. I don't have the details on it here, but 
I can get back to you on it, if that's an interest.
    Mr. Marshall. In Virginia, we are running into a few 
problems as far as actually at the distribution locations not 
having adequate personnel there to handle the long lines and 
the demands, and we are certainly working at the State level to 
help the localities get them distributed.
    Chairman Tom Davis. Please don't hesitate to call us if we 
can help with that, too. I mean, the Governor I know in 
Virginia just said he's pretty proactivate. We had conference 
calls throughout and appreciate your help.
    Mr. Moran.
    Mr. Moran. Thank you Mr. Chairman. I only have one quick 
question for one of the panel members. Mr. Marshall, of the 
millions of dollars in reimbursement that you will be getting 
from FEMA--three-quarters of the State and local expenditures 
for emergency assistance reimbursed by FEMA, I understand--have 
you put together any plans for mitigation of flooding along the 
banks of the Potomac River which happens every time we have a 
major flood? Do you have any idea how you might use that money 
since it has to be directed by the State?
    Mr. Marshall. Certainly, Congressman Moran, that is a key 
issue; and we will look to work with, particularly Alexandria, 
and other communities. As mentioned earlier, the pre-disaster 
mitigation grant is so important to us; we would certainly 
appreciate your assistance in that regard because, as was 
mentioned by Mr. Tolbert, that amount has been reduced by 15 
percent of what we're reimbursed to now 7.5 percent. So any 
assistance in that regard would certainly help us greatly in 
our mitigation efforts. But we certainly share your concern 
with those areas.
    Mr. Moran. Well, we'll discuss it with the Governor. I am 
trying to get some money for the Corps of Engineers to do a 
study as well, and perhaps the State can direct that some of 
the FEMA money be used for the results of the Corps of 
Engineers study on how to reduce the siltage buildup along the 
banks of the Potomac. Thank you, Mr. Chairman.
    Mr. Marshall. We look forward to working with you on that, 
Congressman.
    Chairman Tom Davis. Thank you, Mr. Moran.
    Mr. Van Hollen.
    Mr. Van Hollen. Thank you, Mr. Chairman.
    In the interest of time, I only have two quick questions 
for Mr. Schrader. Thank you for all you have done.
    The first question is, do you have a damage estimate in 
terms of dollars and with respect to the damage that is 
eligible for some compensation from FEMA? Second question, has 
the Governor called upon the Public Service Commission in 
Maryland to do an investigation analysis of the power outages 
lessons learned, how we can do better?
    Mr. Schrader. Let me do the power first, and then I'll get 
to the damages. He has directed the chairman of the Public 
Service Commission, Ken Schisler, last week to do an inquiry; 
and that will be done in the near future. So, you know, we 
definitely want to make that inquiry.
    On the damage assessments, of course, we are being careful, 
but we estimate between State and local government on the 
public assistance side there's probably going to be upwards of 
about $80 million of damage that we will be looking for 
reimbursement. That's both the local jurisdictions as well as 
the State. Of course, that could change, but you know it's in 
that ball park.
    Chairman Tom Davis. Thank you very much. I appreciate all 
of you being here today, and you've been very helpful to us. 
We'll do some followup. Thank you.
    We'll take about a 1-minute recess as we clear this table 
and get the next panel ready to go. Thank you all.
    We have now Richard White, the Chief Executive Officer for 
WMATA; William Sim from PEPCO; Admiral Jay Johnson, president 
and CEO of Dominion Delivery, Dominion Virginia Power; Charlie 
Crowder from the Fairfax County Water Authority; Jerry Johnson, 
general manager of D.C. Water and Sewer Authority; and Leslie 
Violette, the treasurer of the Belle View Condominium Unit 
Owners Association. Would you all please rise with me and raise 
your right hands.
    [Witnesses sworn.]
    Chairman Tom Davis. I think, just to remind you, we have a 
5-minute rule. Your entire statement's in the record already so 
our questions will be based on the entire statement. When your 
light turns orange, that gives you a minute, and when it turns 
red if you could move to sum up about that time.
    Mr. White, thank you for being with us. We'll start with 
you, and we'll move straight on down.

     STATEMENTS OF RICHARD WHITE, CHIEF EXECUTIVE OFFICER, 
WASHINGTON METROPOLITAN AREA TRANSIT AUTHORITY; WILLIAM J. SIM, 
  PRESIDENT, PEPCO; ADMIRAL JAY JOHNSON, PRESIDENT AND CEO OF 
  DOMINION VIRGINIA POWER; JERRY N. JOHNSON, GENERAL MANAGER, 
   D.C. WATER AND SEWER AUTHORITY; CHARLIE C. CROWDER, JR., 
GENERAL MANAGER, FAIRFAX COUNTY WATER AUTHORITY, ACCOMPANIED BY 
   JAMES A. WARFIELD, JR., EXECUTIVE OFFICER; AND LESLIE A. 
    VIOLETTE, TREASURER, BELLE VIEW CONDOMINIUM UNIT OWNERS 
                     ASSOCIATION COMMUNITY

    Mr. White. Chairman Davis and members of the committee, 
good morning and thank you for asking me to testify at today's 
hearing on the National Capital Region's preparedness and 
response to Hurricane Isabel.
    As the largest transit provider for the National Capitol 
region, Metro actively participated in the region's planning, 
coordination and response to the threat posed by Hurricane 
Isabel. There was an unprecedented level of regional 
coordination and collaboration at critical periods before, 
during and after the storm. The coordination procedures were 
conducted pursuant to the region's Regional Emergency 
Coordination Plan using its Regional Incident Communication and 
Coordination System [RICCS]. The system enables National 
Capital Region entities to quickly review and coordinate 
actions that individual decisionmaking bodies were planning to 
take and underscores the significant progress the region has 
made since the tragic events of September 11.
    In the 30 years of bus service and 27 years of rail, WMATA 
had no history of dealing with a hurricane with the size and 
strength of Hurricane Isabel, but we do, of course, have a 
reservoir of experience in dealing with severe weather 
conditions. Our actions were guided by an evaluation of two 
overarching threshold questions. First, when is it unsafe to 
operate and, second, how much advance notice do we provide 
regarding our intentions to restrict service? Emphasis was 
placed on safety, safety to our customers and employees and 
certainly in terms of communicating to the public our decisions 
on service.
    On the issue of safety, given our lack of experience with 
the heavy winds that were being predicted, we sought guidance 
from the National Weather Service, emergency management 
authorities, the Federal Transit Administration, and transit 
agencies that have frequently experienced hurricane-force winds 
such as the Miami/Dade system in Florida. Based on these 
consultations, a determination was made that our mass transit 
operations would be unsafe for customers, pedestrians and our 
employees when our weather conditions resulted in sustained 
winds at or in excess of 40 miles per hour.
    The region conducted two RICCS conference calls on 
Wednesday, September 17, under the auspices of the COG Chief 
Administrative Officers Committee. Approximately 60 separate 
parties participated on these calls, reflecting the 
interdependencies of decisions that are made by the Federal 
Government, local governments, private employers, schools, and 
transportation providers. These calls enabled stakeholders to 
make individual agency or jurisdictional decisions in a 
regional context that allowed for an exchange of information 
discussion and, to the extent possible, regional consensus. The 
safety of citizens was the priority consideration for 
participants during the RICCS calls.
    During the afternoon call, the National Weather Service 
confirmed its earlier forecast of sustained winds in the 40 to 
45 miles an hour range and with gusts of 60 miles an hour, but 
moved up the arrival time on the following day from late 
afternoon to early afternoon. As a result of these calls we 
were strongly encouraged to shut down the entire Metrorail 
system, not just the above-ground portion, out of concern that 
we were sending a mixed signal to our customers by 
contradicting others who were saying it would not be safe to be 
out at all once the hurricane's full force arrived in the 
region. Also, during these calls an overwhelming consensus 
emerged among the group that, in an effort to avoid ambiguity, 
we needed to err on the side of being early rather than late on 
announcing and implementing plans and actions. Call 
participants wanted WMATA to announce its decision to the 
public on Wednesday, rather than to wait till the next day. 
This would be consistent with the approaches that were being 
taken by other decisionmakers on announcing school and local 
government closings and would minimize the potential for chaos 
in the region.
    Based on these factors, we announced our intention to stop 
accepting customers into the Metrorail and Metrobus system at 
11 a.m. Thursday morning in order to ensure that our customers 
and employees would be out of harm's way by 2 p.m., which was 
the National Weather Service forecast for arrival, and that all 
local bus systems would complete their services by 2 p.m. as 
well. By announcing our decision early Wednesday evening we 
were able to get the word out in time for evening newscasts on 
radio and television and for the next day's newspapers.
    I would like to bring to the committee's attention the 
October 2nd letter that was signed by CAO Chair Anthony H. 
Griffin and delivered to the committee that further explains 
the RICCS conference call process and which provides 
considerable additional detailed reports and documentation on 
this decisionmaking process.
    We are now in the process of doing a self-assessment and 
working with our partners to assess the regional coordination 
process in ways in which the planning and response to threats 
can be improved in the future. We are going to be looking at 
our safety criteria in consultation with others, our 
operational plans that guided our decisions, exploring ways 
that we can improve getting our message out to the public, 
reviewing our fare policy, and documenting the impacts to WMATA 
of the extra costs and lost revenues caused by the storm.
    I want to thank you Mr. Chairman, and the rest of the 
members of the committee, for the opportunity to present these 
remarks and for the support you have provided to Metro over the 
years, and I'll be happy to answer your questions at the 
appropriate time.
    Ms. Norton [presiding]. Thank you, Mr. White.
    [The prepared statement of Mr. White follows:]

    [GRAPHIC] [TIFF OMITTED] T1135.036
    
    [GRAPHIC] [TIFF OMITTED] T1135.037
    
    [GRAPHIC] [TIFF OMITTED] T1135.038
    
    [GRAPHIC] [TIFF OMITTED] T1135.039
    
    [GRAPHIC] [TIFF OMITTED] T1135.040
    
    [GRAPHIC] [TIFF OMITTED] T1135.041
    
    [GRAPHIC] [TIFF OMITTED] T1135.042
    
    [GRAPHIC] [TIFF OMITTED] T1135.043
    
    Ms. Norton. Mr. Sim.
    Mr. Sim. Thank you, Madam Chairman and members of the 
committee. My name is William Sim, and I am president of PEPCO.
    As you know, PEPCO's the electric company that serves 
Washington, DC, and most of Montgomery and Prince George's 
Counties in Maryland. I'm here to talk about PEPCO's overall 
preparation and response to Hurricane Isabel and the steps 
we're taking to ensure that we can do everything we can to 
satisfy our customers' needs and expectations in the future.
    We at PEPCO recognize our unique role among electric 
utility companies as the company that delivers electricity to 
the Nation's Capital. Our single largest customer is the 
Federal Government and we deliver power to such critical 
installations as the U.S. Capitol complex, the White House, the 
FBI, and the Department of Homeland Security, amongst others. 
The magnitude of this responsibility does not escape us.
    At this point, everyone is familiar with the devastation 
caused by Hurricane Isabel. It disrupted electric service to 
millions of people in the eastern United States. For PEPCO, it 
meant more than half a million customers--two-thirds of our 
customers--were without power; and the President declared our 
entire region a natural disaster area. However, I am pleased to 
report there were no significant interruptions of power supply 
to any major Federal facility. A pumping station at the D.C. 
Water and Sewer Authority was affected, but it was prioritized 
through coordination with the District of Columbia Emergency 
Management Agency and was quickly restored. With respect to 
State facilities, power supply was interrupted to two 
department of motor vehicle offices, one in the District of 
Columbia and one in Maryland. Thus, the outages resulting from 
Hurricane Isabel primarily affected residential and commercial 
customers.
    PEPCO made unprecedented preparations prior to Isabel's 
arrival. We brought in crews from other States, trained 
additional telephone representatives and secured large 
quantities of electric equipment and materials for restoration. 
As our emergency measures anticipated, the damage was 
devastating. Let me give you some brief examples.
    In PEPCO's service area, there were more than 5,000 wires 
down--that is more in one storm than we see in a year--and 
myriad trees uprooted which caused the vast majority of the 
damage. Crews had to replace more than 75 miles of cable, along 
with record amounts of other equipment. In the face of these 
massive challenges, our employees did everything in their power 
to restore service to our customers as quickly and safely as 
possible. In fact, PEPCO restored service to more than twice as 
many customers and repaired more than four times the damage we 
did in the same period after the 1999 ice storm.
    However, I believe that every event is an opportunity to 
learn and improve our service to customers. In the aftermath of 
major storm events, PEPCO always assesses its efforts to 
restore the system and files reports with the District of 
Columbia and Maryland Public Service Commissions. We support 
these efforts and will cooperate fully with them.
    However, we want to do more; and, as we announced earlier 
this week, we are taking a significant additional step. We have 
asked an expert in natural disasters, James Lee Witt 
Associates, to conduct a thorough and independent assessment of 
PEPCO's and our sister company Conectiv's response to Isabel, 
including the coordination between the companies and with the 
disaster response agencies and others. We believe Mr. Witt is 
uniquely qualified to oversee this important work. As Director 
of the Federal Emergency Management Agency for 8 years, he led 
the Agency response to more than 348 Presidentially declared 
disasters. His work included the oversight of emergency 
response efforts to a dozen damaging hurricanes. Mr. Witt and 
his team will have free rein to ask any questions of any person 
on any issue related to our preparation and response to Isabel 
and will evaluate all aspects of our performance; they will 
seek input from customers, public officials and others. You can 
rest assured that his recommendations will get our prompt and 
serious attention.
    Turning to regional preparedness and coordination, PEPCO 
mobilized the entire company in accordance with its Emergency 
Response Plan which includes participation in the utility 
mutual assistance pact. This pact allows us to pull in system 
repair crews from areas that are not impacted by the storm and 
generally increases our ability to respond. In this effort, we 
had 966 crews working to restore power. Hundreds of these crews 
were on loan from other utilities from as far away as Kansas 
and Mississippi. PEPCO coordinated with our local emergency 
management agencies and provided liaison in the command centers 
in the District of Columbia, Montgomery and Prince George's 
Counties, as well as coordination with the States.
    In terms of outreach, PEPCO's primary way of communicating 
with the public was through our call center representatives, 
our government affairs staff, our Web site, and our news media. 
I personally conducted daily telephone teleconferences with 
elected officials and a special phone line in the emergency 
command center was manned 24 hours a day by government affairs 
staff and staff that handle large commercial accounts. In 
addition, there was a special phone line for government 
officials also staffed around the clock to provide the most 
updated information.
    Finally, as we begin to assess our performance in preparing 
and responding to Hurricane Isabel one issue comes up time and 
time again. Trees. I'll be just 1 second, Mr. Chairman. Local 
governments, the National Park Service and all utilities need 
to work together to assess the tree issue; and we need an open 
dialog of setting priorities for restoration.
    This concludes the formal part of my testimony. I'd like to 
thank you and members of the committee for your attention. We 
will be happy to answer any questions.
    Chairman Tom Davis [presiding]. Thank you very much.
    [The prepared statement of Mr. Sim follows:]

    [GRAPHIC] [TIFF OMITTED] T1135.044
    
    [GRAPHIC] [TIFF OMITTED] T1135.045
    
    [GRAPHIC] [TIFF OMITTED] T1135.046
    
    [GRAPHIC] [TIFF OMITTED] T1135.047
    
    [GRAPHIC] [TIFF OMITTED] T1135.048
    
    [GRAPHIC] [TIFF OMITTED] T1135.049
    
    Chairman Tom Davis. Admiral Johnson, thanks for being with 
us.
    Admiral Jay Johnson. Thank you, Mr. Chairman, members of 
the committee. My name is Jay Johnson. I'm the president and 
CEO of Dominion Virginia power. We provide electric service to 
2.2 million customers in Virginia and North Carolina.
    I am grateful for the opportunity to appear before the 
committee today. I want to discuss Dominion's role in dealing 
with Isabel, but I would also say the implications for 
improving future emergency preparedness in the Metro D.C. area 
are many, and I commend the committee for stepping forward and 
taking this action. Mr. Chairman, you have my written 
statement, and I'd just like to highlight a few points if I 
could.
    Hurricane Isabel, as we know, was the most devastating 
natural disaster in Dominion's 100-year history. The hurricane 
covered an area the size of the State of Colorado; and at the 
peak of the storm 1.81 of our 2.2 million customers--that's 82 
percent--were without power. The damage to our electrical 
system was catastrophic in much of central and eastern Virginia 
and North Carolina. In northern Virginia the damage was less 
severe but still very, very significant. In northern Virginia, 
for example, 16 area water pumping stations lost power, as did 
91 schools across the region; and that's about a quarter of the 
schools in northern Virginia. The good news is that no 
hospitals in northern Virginia were affected; and other 
important facilities, including the Pentagon, Fort Belvoir, 
Dulles and Reagan airports and the Metro system did not lose 
power. Although we continue to catalog the damages, we know the 
storm destroyed more than 10,700 utility poles, broke 14,600 
cross arms. We had to replace 13,000 spans of wire and almost 
8,000 transformers. More than 60 percent of our 1,600 primary 
circuits were badly damaged. The scope and impact of Isabel 
were unprecedented, as were our preparations and response.
    We placed emphasis in two areas: first, mobilizing the 
manpower and materials we needed to safely restore electrical 
power; second, providing timely and up-to-date information to 
government officials, media and customers before, during and 
after the event. We knew this was going to be a big storm. We 
initially mobilized a work force of 7,000 which grew to 12,000 
over the following days. We had crews from 20 different States 
and the Province of Quebec assisting in this restoration 
effort. Our top priority, initially, was restoring critical 
public health and safety facilities as soon as the hurricane 
passed--hospitals, water pumping and treatment stations, 911 
services, fire stations, and the like.
    Recognizing the crucial importance of the region's water 
supply, we also sent members of our management team to work 
onsite with our colleagues at the D.C. Water Authority and the 
Fairfax County Water Authority soon after the storm hit. We 
restored 14 of the area's 16 pumping stations on Friday, 
September 19, the day we began restoring power. The other two 
pumping stations were located at Occoquan. They suffered major 
damage to the electrical infrastructure but were restored 
within a week.
    I've got a more complete accounting of all of this in my 
written testimony, but I would comment that, in many cases, 
what we're talking about here is rebuilding the distribution 
system, not just simply repairing it. Suffice it to say, our 
line crews performed superbly, working long hours under 
extremely difficult conditions. I am pleased to report that, as 
of today, our crews have restored power to virtually all of 
Dominion Virginia Power's 1.8 million customers. When I left 
Richmond this morning at 0600 it was under 500 and counting, 
and we feel pretty confident we will get the rest of those 
today.
    In addition to the physical work of setting poles and 
pulling wire, we implemented a comprehensive and proactive 
public communications plan. Providing up-to-date information to 
government officials and the public was a priority before, 
during and certainly after the hurricane. Among other things, 
we conducted regular briefings for State and local officials. 
We exchanged information with local EOCs, Emergency OP Centers. 
We issued radio, print and electronic communications to our 
customers, including targeted messages to 10,000 customers with 
special medical needs 2 days before the storm hit. And, for the 
first time, we posted information about the location of repair 
crews and their daily work plans on our Internet Web site, 
which had over a half a million hits in the first 2 days after 
the event. From the outset, we were very clear about our 
restoration priorities, and we repeatedly emphasized two things 
in our public communications: one, the importance of safety to 
our crews and to the public; and, two, the inescapable fact 
that the restoration effort would more closely resemble a 
marathon than a sprint due to the catastrophic damages 
suffered.
    By and large, we believe our efforts to keep local 
authorities and the public informed were quite successful. That 
said, we know we can do better; and we have every intention of 
doing so. Dominion's corporate culture is grounded in the mind 
set of continuous improvement. Once we complete all aspects of 
the restoration effort we are going to take a hard look at 
everything we did. We will conduct a thorough assessment of our 
planning, our implementation, our materials management, and 
communications. The implications for regional emergency 
preparedness will emerge more clearly as we examine the entire 
Isabel experience with the clarity of 20/20 hindsight. We're 
committed to partnering with all levels of government and all 
the emergency agencies to address their concerns as part of 
this ongoing assessment.
    The 12,000 member team we assembled for Isabel was the 
largest we have ever fielded. These men and women, some 
Virginians, some from other States, some from Canada, performed 
extraordinarily well under adverse conditions. We're very proud 
of them. I would also say that we are grateful, in closing, to 
the many Dominion Power customers who shared a kind word with 
our crews, who gave them the thumbs up as they worked hard to 
restore electrical service as quickly and safely as they could. 
We value our customers' support, and we appreciate their 
patience and understanding.
    Isabel was a harsh teacher. She brought many hardships to 
the area. We intend to learn from her presence here and build 
on our restoration success to achieve even greater preparedness 
in the fu-
ture. Mr. Chairman, I thank you for giving me the opportunity 
to address the committee; and I stand ready to answer your 
questions.
    Chairman Tom Davis. Thank you very much.
    [The prepared statement of Admiral Johnson follows:]

    [GRAPHIC] [TIFF OMITTED] T1135.050
    
    [GRAPHIC] [TIFF OMITTED] T1135.051
    
    [GRAPHIC] [TIFF OMITTED] T1135.052
    
    [GRAPHIC] [TIFF OMITTED] T1135.053
    
    [GRAPHIC] [TIFF OMITTED] T1135.054
    
    [GRAPHIC] [TIFF OMITTED] T1135.055
    
    [GRAPHIC] [TIFF OMITTED] T1135.056
    
    [GRAPHIC] [TIFF OMITTED] T1135.057
    
    [GRAPHIC] [TIFF OMITTED] T1135.058
    
    [GRAPHIC] [TIFF OMITTED] T1135.059
    
    Chairman Tom Davis. Mr. Crowder, thanks for being here. I 
see Harry Day, your chairman is here as well. I want to 
recognize him. And, Harry, welcome to the room.
    Mr. Crowder. Chairman Davis, thank you very much. 
Congresswoman Norton and Congressman Van Hollen and members of 
the committee, good morning. I'm Charlie Crowder, and I'm the 
general manager of the Fairfax County Water Authority. I have 
over 30 years experience in planning, building and operating 
major metropolitan water systems; and I'm pleased to be here 
today to discuss tropical storm Isabel and its impact on the 
Water Authority and the customers we serve.
    Our Water Authority is the largest in Virginia and one of 
the 25 largest drinking water utilities in the country. 
Approximately 1.2 million people in northern Virginia use our 
water. The Water Authority operates two water treatment plant 
industrial complexes. Our plants are located on the Potomac 
River and on the impounded Occoquan River.
    Drinking water systems frequently face power outages caused 
by storms, icy weather, high winds, and similar natural 
occurrences. Systems like ours that must respond to these types 
of outages are generally well prepared with extensive system 
architecture, along with trained and knowledgeable personnel. 
Outages generally caused by severe weather tend to be of 
relatively short duration, impacting small portions of a 
system. It is highly unusual for local weather conditions to 
have such a devastating impact. In fact, it was the first time 
in the 50-year history of the Fairfax County Water Authority 
that we lost all the power feeds to our treatment plants.
    Now I'd like to recap what occurred 2 weeks ago, then 
describe some important reliability improvements the Water 
Authority has initiated in recent years and also mention some 
prospective facility improvements we are reexamining in the 
wake of Isabel. The Water Authority entered the day of the 
storm's arrival with our employees mobilized, facilities fully 
operational and all of our storage tanks full. We experienced 
intermittent power outages, but these impacted only individual 
facilities and were quickly restored by the power company, and 
our redundant features offset the impacts. However, late on 
Thursday, September 18th, electrical power was lost to all four 
treatment plants. By 4 a.m. on Friday, some of our customers 
began to experience low water pressure and the potential for 
contamination from siphonage became possible. Out of an 
abundance of caution, our customers were advised to boil that 
small portion of their water that they wanted to drink. The 
precautionary boil water advisory was lifted at 7 p.m. Sunday, 
September 21st.
    During this entire time, Dominion Virginia Power responded 
with priority service to the Water Authority. The power company 
worked through the storm to restore power to our facilities. 
Despite those efforts, it still took over 13 hours to restore 
power to our Potomac plant, with the other plants regaining 
power several hours later. In total, customers who awoke Friday 
morning to no water had their water service restored by Friday 
evening. With the exception of the inconvenience of boiling 
water needed for direct consumption, all water services were 
restored in about the same amount of time it takes to fix a 
major water main break. However, the fact that this was a 
system-wide outage made it serious indeed, and we will take 
steps to prevent its reoccurrence. We must have virtually 
uninterruptable power for the system by one means or another. 
Mr. Chairman, a 13-hour power outage for a public water system 
is significant. The Water Authority does not believe this is 
acceptable nor do we believe that Dominion Virginia Power does. 
The reasons behind the delay in regaining power to the water 
system need to be examined and preventive measures put in 
place.
    Throughout our history, we have made improvements to 
increase the water system reliability. We have two sources of 
water, two treatment complexes with similar production 
capacities at opposite ends of our service area and a strong 
interconnected transmission system. These are protections 
enjoyed by only a handful of major water utilities. Our Potomac 
plant has dual power feeds, with one placed underground to 
avoid ice and windstorm outages. Next year, when we bring a new 
state-of-the-art 120 million gallons per day water treatment 
facility on line at Occoquan, it will further increase our 
power supply reliability. We took the initiative with this new 
plan to have its power feed and substation connected directly 
to the national grid, which will provide extraordinary power 
reliability.
    Looking to the future, we are re-examining constructing 
more elevated storage tanks and we are reexamining onsite 
emergency power generation at our facilities, all the while 
taking a fresh look at power generation feasibility from a 
Fairfax County incinerator. We estimate onsite emergency power 
generation could cost as much as $50 million and will require a 
significant increase in our water rates.
    Although the feasibility and cost of these options have 
been considered in the past, it is important to reevaluate 
previous assumptions and examine new ones in light of Isabel. 
We have already engaged a nationally recognized engineering 
firm to conduct an assessment of options and recommended 
actions that will allow us to prevent another situation like 
the one Isabel inflicted on us.
    Let me stop at this point and express that the linkage 
between the power sector and water sector is one of the key 
infrastructure interdependencies under study at the local and 
national level throughout the water industry. Thank you for 
this opportunity to address the committee, and I would be happy 
to answer your questions.
    Chairman Tom Davis. Thank you very much.
    [The prepared statement of Mr. Crowder follows:]

    [GRAPHIC] [TIFF OMITTED] T1135.060
    
    [GRAPHIC] [TIFF OMITTED] T1135.061
    
    [GRAPHIC] [TIFF OMITTED] T1135.062
    
    [GRAPHIC] [TIFF OMITTED] T1135.063
    
    [GRAPHIC] [TIFF OMITTED] T1135.064
    
    [GRAPHIC] [TIFF OMITTED] T1135.065
    
    Chairman Tom Davis. Mr. Johnson. Thanks for being with us.
    Mr. Jerry Johnson. Thank you and good morning, Mr. 
Chairman, Congresswoman Norton, Congressman Van Hollen. I'm 
Jerry Johnson, general manager of the District of Columbia 
Water and Sewer Authority. We're pleased to be invited to 
provide testimony today on emergency preparedness.
    WASA, as you know, provides wastewater collection for the 
Nation's Capital and wastewater treatment for Prince George's, 
Montgomery and Fairfax Counties as well as the District of 
Columbia at the large, advanced wastewater treatment plant that 
we call Blue Plains. WASA also purchases 76 percent of the 
drinking water produced by the Washington aqueduct and provides 
retail water delivery in the District of Columbia to portions 
of northern Virginia to include the Pentagon and National 
Airport.
    Generally, a major storm event can impact WASA's system and 
customers in a number of different ways. Fortunately, by 9 a.m. 
on Friday, September 19, WASA's emergency operations determined 
that WASA had fared very well through the initial hurricane, 
had no major damage to our facilities or operations and had no 
unusual customer calls or complaints, and cleanup of minor 
localized flooding areas and the treatment plant were under way 
at that time.
    WASA worked closely with the District of Columbia agencies 
to ensure timely information sharing coordination and 
reallocation among agencies' resources during the storm and for 
clean-up operations. Our designated personnel reported to the 
EOC Emergency Management Agency at the District of Columbia 
upon its activation at 8 a.m. on Wednesday, on September 17. 
The WASA Emergency Operational Center was activated Thursday, 
September 18th, at 12 noon and continued to operate through 
Friday, September 19th, until 3 p.m. WASA EOC was fully staffed 
and included extra customer service reps to respond to customer 
calls; public affairs and other management staff, who were 
available to respond to media inquiries and to contact media 
and provide updates or bulletins to help customers be more 
informed; procurement staff to insure that equipment services 
and other purchases that may have been required for the 
emergency were available.
    WASA's preparation and mobilization, however, began well in 
advance of the activation of the EOC. Operational departments 
distributed emergency duty schedules and deployment plans. 
Operating departments and procurement cooperated in advance to 
ensure that WASA had the flexibility to use contractors and 
others sufficient to supplement our own water and sewer 
operations and plant maintenance functions in the emergency.
    As was noted by Mr. LaPorte in his testimony, WASA 
accelerated system maintenance schedules in advance of the 
storm's arrival by clearing large areas of catch basins in 
flood-prone areas of the city in a successful effort to help 
avoid localized flooding. We prepositioned equipment, supplies 
and personnel, and certain other facilities. As I said earlier, 
WASA and our customers seem to have weathered the storm 
reasonably well.
    Although I have included additional information in my 
testimony, I will comment on a problem that was significant but 
of short duration. The storm water pumping station used to pump 
runoff away from I-395 roadway as it continues north across the 
14th Street Bridge was overwhelmed by rising waters from the 
Potomac River and the Washington Canal, causing a closure of 
395 on September 19. The facility near the Case Bridge was 
simply overwhelmed by the high flows, and the electrical system 
failed as water entered the station. I-95 traffic was diverted 
around this location, and WASA personnel removed reconditioned 
electrical equipment and pumped away the water, but, 
unfortunately, it took 48 hours for us to recover from this 
flooding incident on the roadway.
    WASA is continuing a formal debriefing and will be 
informing our Board of Directors. Some of that information that 
they will be receiving is included in the testimony. We will 
continue to evaluate and enhance our capability as a first 
responder for emergencies, focusing on employee training, 
facility maintenance, access control, remote monitoring, and 
other issues that are critically important for preparing for 
either a natural disaster or other catastrophic event. We 
continue to work with local and Federal Government, the Council 
of Governments and other water utilities in the region on these 
challenges we face. Through COG, for example, we are exploring 
the feasibility and wisdom of system interconnections where 
major intersections can be done with what currently is a 
separate system that will allow us to share critical important 
water resources in the case of emergencies. We will continue 
these efforts, Mr. Chairman and we appreciate the committee's 
interest in this important but usually invisible work that we 
perform. We also thank this committee for its continued support 
of the D.C. Water and Sewer Authority and the activities that 
we undertake to serve the residents of the District and the 
region.
    Chairman Tom Davis. Thank you very much.
    [The prepared statement of Mr. Johnson follows:]

    [GRAPHIC] [TIFF OMITTED] T1135.066
    
    [GRAPHIC] [TIFF OMITTED] T1135.067
    
    [GRAPHIC] [TIFF OMITTED] T1135.068
    
    [GRAPHIC] [TIFF OMITTED] T1135.069
    
    [GRAPHIC] [TIFF OMITTED] T1135.070
    
    Chairman Tom Davis. Ms. Violette, last but certainly not 
least, thank you for staying with us and being here today.
    Ms. Violette. Well, good morning, Mr. Chairman and members 
of the committee. I'm Leslie Violette. I am the treasurer and 
former president of the Belle View Condominium Unit Owners 
Association. This association is comprised of owners of 980 
condominium units within the Belle View Condominium and is 
responsible for the management and the maintenance of the 
common areas of the Condominium. Belle View Condominiums is 
located in an area of Fairfax County that lies along the George 
Washington Parkway, which is adjacent to the Potomac River.
    During the early hours of Friday, September 19, Hurricane 
Isabel created a storm surge that pushed a 9\1/2\ foot wall of 
water over the banks of the Potomac River and into the Belle 
View Condominiums, flooding homes, damaging utilities and 
destroying property. All 65 buildings within the condominium 
were flooded. Seventeen homes remain uninhabitable; family 
heirlooms and mementos have been destroyed; and many residents 
today are without hot water, heat, gas, or electricity. 
Preliminary estimates of the damage to the Belle View 
Condominium common elements alone range between $4 and $6 
million. The losses suffered by the Belle View families cannot 
even be estimated.
    Fairfax County officials issued warnings of this calamity 
only 9 hours before the surge occurred, although county 
engineers knew as early as the preceding Wednesday night that 
the storm surge would flood the Belle View area; in fact, many 
Belle View residents learned of the surge only when Fairfax 
County firemen notified Belle View residents by knocking on 
their doors, beginning 7 p.m. on the night of the storm, 
leaving them with precious little time to move vehicles to 
higher ground or to remove personal property from basement 
storage areas in below grade residences.
    Fairfax County officials have described Belle View as the 
most vulnerable point in the county, and county engineers knew 
days before that a storm surge was likely and as early as the 
preceding Wednesday that it was likely that Belle View would be 
flooded. However, the county waited until the night before the 
storm to hastily announce a meeting of the members of the 
boards of directors of area residential associations, including 
Belle View. The county official conducting the meeting reported 
that he had already been briefing communities for approximately 
1 week before the arrival of Isabel. In answer to questions, 
the official said that the community could expect that the side 
streets, the main roads, and intersections within the community 
would likely be covered with 6 inches of water, making them 
impassable for a time. He also anticipated a 3- to 5-foot tidal 
surge, not the 9\1/2\ feet tidal surge that Isabel delivered. 
During this briefing, the county official was uncertain whether 
evacuation would be necessary and offered no direction on what 
residents should do in the event of an evacuation order or 
where we should go if we were evacuated. Those 40 people 
attending this meeting and the many residents of Belle View who 
were not notified of the meeting were given no further 
information by the county until the television stations began 
broadcasting the evacuation order and firemen appeared at their 
door.
    On the Friday and Saturday following the storm, the county 
worked to bring together and coordinate resources to assist us 
in recovering from the calamity that had befallen us. Several 
meetings were held for the Belle View community over these 2 
days, but there were continuing problems in coordinating the 
meetings and notifying residents and the Association of those 
meetings. Since these first 2 days, county officials, 
specifically Supervisor Gerry Hyland, Mount Vernon Police 
Captain Larry Moser and Fairfax County Fire Chief John Caussin 
have been tireless in assisting our residents in coordinating 
relief efforts and in communicating with the Association and 
our owners. In addition, Congressman Moran responded to our 
needs quickly and vigorously, bringing Federal emergency relief 
resources such as FEMA and the SBA to bear. Likewise, the 
American Red Cross responded immediately to our human needs and 
was a godsend to our dispossessed residents.
    Our region can and should respond to future emergencies 
more effectively. In our particular case, if the area of the 
county in which Belle View is situated is the most vulnerable 
part of the county, we need to develop better means to protect 
it. We need to develop better means for prompt, early 
dissemination of information and warnings about approaching 
dangers. With more warning than we received here, valuables 
could have been preserved, vehicles could have been moved and 
special needs residents could have been cared for better.
    Long-range planning for emergencies is everyone's business. 
The Belle View Board of Directors has already begun steps to 
understand what can be done better to protect our physical 
plant. We believe a coalition of local governments, businesses 
and residents should be developed to work toward improving our 
systems for identifying, grading and warning of potential 
dangers and to respond to the dangers as they occur. Only now, 
after the damage has been done and all the necessary parties 
are talking with each other and cooperating with each other, 
has something started to really jell. I wish this had happened 
before and as the storm approached and I hope this developing 
dialog will continue. Thank you, Mr. Chairman, for the 
opportunity to address you and to report to you what we 
experienced.
    [The prepared statement of Ms. Violette follows:]

    [GRAPHIC] [TIFF OMITTED] T1135.071
    
    [GRAPHIC] [TIFF OMITTED] T1135.072
    
    Chairman Tom Davis. Thank you and thanks for being with us.
    Ms. Violette, let me start with you. Some of your residents 
there are really tenants, right? You have good condominium 
owners, but that lease--is that right?
    Ms. Violette. That is correct.
    Chairman Tom Davis. And are they going to be covered with 
homeowners insurance of any kind or have some of them lost 
everything?
    Ms. Violette. Well, I will tell you, Mr. Chairman, what 
happened is, everybody has--almost everybody has contacted 
their homeowners insurance, myself included, and unless you 
have flood insurance, which nobody seems to have had or we 
thought we had, most of us thought we had a, ``water policy,'' 
it is not covering our damages.
    Chairman Tom Davis. And had the county come 12 hours 
earlier or given more warning, obviously, things could have 
been salvaged.
    Ms. Violette. Right. We could have sandbagged, we could 
have moved our vehicles. What happened is people were sort of 
lulled into a sense of, well, you know, every time it rains in 
Belle View we take on water, and I think when we were told 
there was 6 inches of water coming people left their cars 
there. Their cars are flooded out, so they are total losses. 
When we have a heavy rainstorm, 6 inches of water comes on the 
road, so we assumed this is the normal storm in Belle View. Why 
leave?
    Chairman Tom Davis. The reason people left is because 
somebody came to the door; is that right?
    Ms. Violette. Right, and said you should leave. And for me, 
I had an older dog so I didn't want to take the chance. Some 
people took their pets and left, some people had elderly 
parents that were there, they came and got those folks, but I 
tell you when the firemen came door-to-door, bless them for 
coming door-to-door, but I asked them, ``Why are you coming 
around? What has changed?'' They said, ``Well, you are going to 
flood.'' And we said,``How much?'' They said, ``We don't 
know.'' They did not know, so why would someone leave if the 
firemen can't tell you why you are leaving.
    Chairman Tom Davis. OK. Thank you.
    Mr. White, we have heard the testimony on the closing. I 
think you did everything right; I mean, as I listen to this, 
you had the conference call. You can never predict with 
certainty. I remember that day driving home; we held a hearing 
that morning, everything else was shut down, and I thought, 
``Jeez, why are they closing?'' I understand the process that 
went into it and you are never perfect in terms of timing 
everything. As you look back, you didn't have the kind of 
damage you could have had, but I remember during the last 
snowstorm how bad it was and the damage that occurred and 
actually you were the only ingress and egress through that 
area, so any thoughts afterwards of what might have been 
different?
    Mr. White. Well, thank you for your comments, Mr. Chairman. 
I think our process was as good as it could be. We wanted to 
make sure we weren't making any decisions in a vacuum and that 
we were consulting with as many people and conferring with as 
many people as possible. I was very glad to hear the 
observations of Director Tolbert and other members of public 
safety management. I think there was a clear understanding that 
this was a very serious event, and though one could not predict 
when it was going to happen it was a near certainty that a very 
severe event was going to take place. In trying to provide 
certainty, we could have held off and made the decision the 
next day, closer to when events were going to take place, but 
we were going to have conflicts with schools and local 
governments that were making decisions earlier than that. We 
are certainly willing and prepared, and have already told 
people in after-action meetings, ``Please give us your 
expertise on the decision that came down on.'' This standard or 
threshold of 40 miles an hour was really not a safe condition 
and, we would be happy to entertain any advice people have 
around that technical standard. But I think it really comes 
down to that simple matter, that when safety people tell you 
there is a threshold condition, you must err on the side of 
being conservative and I would much rather be here talking to 
you and others about the decision we made and why we did it, 
rather than explaining why people got hurt.
    Chairman Tom Davis. I don't think there is any question 
about that. Had you waited until that day, you could have had 
all kind of clusters there, right?
    Mr. White. Right.
    Chairman Tom Davis. The key is you didn't lose any 
equipment, did you?
    Mr. White. No, we didn't, sir. We lost power temporarily.
    Chairman Tom Davis. I am talking about long-term damage 
like you had from the snowstorm.
    Mr. White. No, we did not.
    Chairman Tom Davis. Let me ask Mr. Sim and Admiral Johnson, 
was there a clear cut difference in the loss in power between 
those communities that were underground versus those that had 
the wires running through the trees?
    Mr. Sim. From my point of view, yes, obviously. I think it 
is 63 percent of the D.C. system is underground. The downtown 
area, basically, was unaffected by this, and remember the 
downtown area is underground, as part of the old fire code and 
everything else, but, yes, there was a considerable difference.
    Admiral Johnson. I would give the same answer, Mr. 
Chairman, with one caveat, and that is, we have 35,000 miles of 
distribution system. About a third of that is underground, yet 
we still lost 82 percent of our customers, so----
    Chairman Tom Davis. You lose some along the way?
    Admiral Johnson. Yes.
    Chairman Tom Davis. And sometimes it is tougher when it is 
underground to correct it than when it is above, but there is a 
marked difference, it is fair to say. My time goes quickly but 
let me yield to Ms. Norton for 5 minutes.
    Ms. Norton. Thank you, Mr. Chairman. Mr. White, how often 
do we get 40 mile per hour winds in this jurisdiction?
    Mr. White. Well, we certainly know that we have not had it 
since the Metrorail system opened up. I cannot tell you when we 
had it before then but I can tell you we have not had it since 
the system opened up.
    Ms. Norton. In your testimony, you said you were strongly 
encouraged, you used those words, to shut down. Who strongly 
encouraged you to shut down, the elected officials?
    Mr. White. On the COG-RICC's conference call, for which 
there were 60 different parties, every official who is the lead 
official in county government, the lead staff official in 
county government, all the emergency management agencies, the 
school support, several members of the Federal Government, 
public safety, homeland security and personnel officials from 
the States, Michael Byrne from the Office of the National 
Capital Regional Coordination, and actually an official from 
the White House as well, those were the ones that participated 
in the call. As I said, there were more than 60 parties. There 
were two separate calls on Wednesday, the day before the event, 
and there was one official party that the COG uses as the 
authoritative source on the weather event, an official of the 
National Weather Service. So that is the process we went 
through and those are the parties who participated in the 
dialog, and that was the outcome of those dialogs and again, 
Ms. Norton and other members of the committee, I would 
encourage you to take a look at the letter and attached 
documentation that Tony Griffin sent in last night. They have 
already prepared the documentation on the 19 separate 
conference calls that regional officials participated in, 9 of 
which were transportation calls, and they have already done a 
preliminary after action assessment report, and all of that 
information was contained in that.
    Ms. Norton. Mr. White, I would hate to have been in your 
position, to have had to make the call, and the last thing we 
want to do is to second-guess you, and I do note that there is 
agreement among officials, I guess there is, since you say they 
were all in audit; I am not sure who had the necessary 
expertise. I know if I were on the call, I certainly wouldn't 
have had it and therefore I would have had to rely on somebody 
who did know more than I knew.
    I am impressed that with all of the concerns there have 
been, Mr. Sim, with PEPCO, that PEPCO is calling in an outside 
analyst to review what happened. The District told me before 
they left, the representative of the District told me, that 
George Washington University was doing an independent 
assessment, but I note, Mr. White, that in your testimony you 
say only that Ramada is currently in the process of completing 
a self-assessment. Let me congratulate all of you on doing a 
self-assessment, but in light of the outcry from residents, the 
need to fully understand what happened, your answer to me that 
somehow this decision was made collectively by 60 people and 
therefore it is hard to know where responsibility lies or 
should lie in the future, Mr. White, don't you think that there 
should be an outside assessment as well and that you would be 
assisted if you were--if you had more than your own self 
criticism. And in a real sense, to me it is like if Eleanor 
writes something and then she proofreads her own thing, I can't 
see anything because it is all in my own head, and I am only 
human. If you were only human, wouldn't the better procedure be 
to have a fresh side look at what you did and not only your own 
eyes?
    Mr. White. Well, I agree with you entirely, Ms. Norton. I 
didn't mean to imply that we were just looking at this issue 
ourselves. As a matter of fact, I have personally participated 
in two meetings this week at which regional officials have come 
back together to begin the review and after action assessment 
process.
    The COG chief administrator's----
    Ms. Norton. Mr. White, I am really talking about an 
entirely--those people were involved in a conference call. Mr. 
Chairman, I am not talking about a special council here, but I 
am talking about a totally independent, fresh eyes; I had 
nothing to do with the decision, but let me look at it. That is 
really my question.
    Mr. White. We have already asked the State----
    Ms. Norton. And I will give you as an example what PEPCO is 
doing.
    Mr. White. We have already asked the State emergency 
management officials as to whether they would be willing to 
offer us any such advice about the threshold decisions that we 
made on public safety issues.
    Ms. Norton. Well, who did you ask, I am sorry?
    Mr. White. The State emergency management agencies.
    Ms. Norton. Mr. White, I mean, you get my point. You keep--
you are circular. You are asking people who were a part of the 
decision to assess the decision. I am making my point by 
pointing to Mr. Sim and PEPCO; they have also had an outcry. I 
am not looking--we are making no assessment, we are making no 
judgment. We just want to make sure that there is improvement 
and we are going by standard operating procedure. We thought in 
the private sector somebody would come in and, in addition to 
our own assessment, do an assessment.
    Chairman Tom Davis. You are saved by the red light there, 
but we may get another round there.
    Ms. Norton. But you do get my point?
    Mr. White. I do get your point.
    Chairman Tom Davis. OK. Thank you very much. Mr. Moran.
    Mr. Moran. Well, he is not exactly safe. I think he would 
have been better of if he was just responding to Eleanor, 
because I agree with Eleanor, and I appreciate that you want to 
be a nice guy, Tom, and normally you ask pretty probative 
questions. I don't mean to be dismissive, but, you know, I 
think this is a tougher issue than to have all these folks who 
work together, all of whom are going to get paid whether they 
work on that day or not. I mean, some of them may be docked for 
cover time or something, but, you know, they are all folks in 
white collar jobs, and it is not a big deal to call off Metro 
at 11 a.m. In retrospect, it was the wrong decision. The storm 
didn't start until all the weather forecasters said it was 
going to start, which was late afternoon, and, you know, if you 
had watched the weather reports then all of them were 
consistent, all of them said we are tracking the storm.
    In listening to the guy that said that he was the one that 
wound up closing down the Washington region, all he said was, 
it is possible some of the storm could arrive earlier, but, you 
know, you have to make an executive judgment, and your judgment 
resulted in the loss of $70 million. I like your dad, I think 
you are doing a great job, Mr. White, and this is an important 
hearing and it is being conducted properly, but, you know, none 
of the people who were reliant upon Metro truly for their whole 
lives were consulted. There are people who don't have a car, 
who can't get around without Metro. Most of them tend to be 
low-income people, but we have also got a lot of communities in 
Arlington and D.C.; for example high-rise communities. They 
don't own an automobile. I mean, they had to leave work whether 
they were going to get paid or not, and it was a beautiful day 
as it turned out until the storm started coming in the late 
afternoon. To dismiss it 2 hours earlier would have saved a lot 
of money and would have been a lot less disruptive to people's 
lives. Not a question, just an observation.
    Mr. Johnson, I am really glad you are heading Dominion 
Power. You were a wonderful leader in the U.S. Navy and, boy, 
Dominion Power made a great decision to pick you and I don't 
have any complaints about your watch, but there are a lot of 
places where wires ought to be underground and they are not, 
and it is because you have to be competitive with other utility 
companies vis-a-vis your shareholders and there is a 
disinclination to make the kind of capital investments that 
need to be made by utility companies all over the country. That 
is one of the reasons we had the blackout that we did. I know 
you are aware of it and know you are a proactive person, so I 
have no questions but I hope utility companies across the 
country--you know, it would be nice if we could take a little 
piece of the money we are sending, the $6 billion we are giving 
to Iraq, to establish an electric power grid, if we could share 
some of that in the United States, but that is a digression.
    OK, now. Leslie, thank you so much for being here, 
particularly thank you for your leadership. I understand that 
you are angry and dissatisfied with the information you got 
from the seat of government in Fairfax County, which was pretty 
much removed from the scene of the action in southern Fairfax, 
but I really appreciate what you said about Mr. Hyland's 
office. I know he was deeply involved in this, and particularly 
those police and fire emergency responders assigned locally. 
Boy, they did a great job, and I really appreciate your giving 
the credit that they are due and I know you have done that at 
every meeting you have had. But what could the Federal 
Government have done better than what we did. We now finally 
have a disaster recovery center and that is good and I 
appreciate the FEMA people doing that; and SBA was good and 
they did come to a meeting. But what are the things that they 
could have done, either in direct assistance or to at least 
provide information that you think they could look for if we 
have a future disaster like this, where they might be able to 
be a little more responsive from your perspective, it being 
right there on the field and being the first one, one of the 
first people that affected residents who asked for advice and 
what to do?
    Ms. Violette. Well, as far as the Federal Government is 
concerned, you know, when the gentleman was here from FEMA and 
he was talking about them handing out pots and pans and what 
not, I will be honest with you, I never saw any of that. I 
never saw any of the things that he was talking about. So I 
will be honest with you, we did not see very much of FEMA 
onsite in our neighborhood, so the stuff you were talking about 
their presence and what not, I have to agree with you. They 
just were not around very much in our neighborhood, and that 
was one of our concerns. They just were not down in the 
neighborhood, down in the trenches, and the problem was that 
they were there--they said they were going door-to-door during 
the day, but I will be quite honest with you, if they were 
going door-to-door during the day they are not going to get 
people door-to-door during the day. People do have to work, and 
I did tell the gentleman when he called, I said that if you 
were hitting people door-to-door during the day, I know for a 
fact you did not hit people on my street and I said, ``can you 
come at night,'' and he said, ``we don't work at night,'' and I 
said, ``well, I work for the Federal Government,'' and I said, 
``that is part of the knock on the Federal Government.'' People 
think a 9 to 5 job. Well, this is not a 9 to 5 job when you are 
in disaster relief. People are not home during the day. You 
have to go at night, and there was a sign posted on the door of 
my neighbor. I was here between 9 and 5. Well, ``duh,'' she was 
working. You are not going to get her, you know. I mean, you 
have to be available when the people are available. If you are 
not willing to come out in the evening hours, you are not going 
to get ahold of people. I am sorry to be so frank, but that is 
the truth. You are asking me for the truth, I am telling you 
the truth.
    Mr. Moran. That is what we wanted and that is why we are 
having the hearing, and, Mr. Chair, this is going to be our 
last opportunity for questioning? Thank you so much for having 
the hearing. We get information that we wouldn't otherwise get 
and it was really timely and I really appreciate your letting 
us do this.
    Chairman Tom Davis. Yes, and this was one of the real 
tragedies that happened, down in Belle View, and I hope we can 
learn from that and the county can learn from that in the 
future. Let me say one thing before I recognize Mr. Van Hollen 
and go back to the Metro closing. Sure, you might have moved it 
to 3 o'clock or 1 or 2, but you made the decision the day 
before, which was critical. Can you imagine not having made 
that decision and having people in their offices and people 
relying on it and closing it down and I think as we have heard 
from the State officials who approved what you did, Congress 
closed down that day. Only activity up here was this committee.
    Ms. Norton. Because Metro closed down.
    Chairman Tom Davis. Well, Members of Congress don't use 
Metro.
    Ms. Norton. I do, Mr. Chairman.
    Chairman Tom Davis. Well, Monday morning quarterbacking 
aside, I think the decision matrix was good and I came here 
prepared to go the other route, but after hearing from our 
State and from FEMA and from everyone saying you got a tough 
job, as you can see, we can never satisfy anybody up here 
either and we can always learn and get a little better at it. 
But I just want to reiterate my support for the process and the 
way it happened. Sure, if we could go back and revisit it, 
maybe we could hone it the second time. It is great to second-
guess. Mr. Van Hollen.
    Mr. Van Hollen. Thanks, Mr. Chairman, and just for the 
record, there are many occasions when this Member of Congress 
does actually ride Metro, but I didn't ride it that morning, 
and it was a ghost town down here that day.
    Let me direct my questions to Mr. Sim, and again I 
appreciate you being here. I also appreciate the fact that 
during the period of the power outage you had an open line of 
communication with the elected officials. I am also glad that 
PEPCO has recognized it has a crisis of confidence among many 
hundreds of thousands of its customers, and again I commend you 
on bringing in an outside expert to evaluate the situation.
    I would just like to raise a couple issues and have you 
respond if you could. One is the long-term issue. In our 
region, there are many people who say that power outages, when 
you have storms, are not unusual circumstances. There are 
pockets of Montgomery County and Prince George's County where 
this is not an unusual occurrence.
    Second, with respect to Isabel and the response and 
bringing in out-of-state crews, I mean, the reports indicate 
that other utilities in the region were able to recruit more 
out-of-state people more quickly, Dominion Virginia Power being 
one, and the ability to get people's power back online seems to 
reflect the fact that was a successful strategy by those 
utilities. Just a few figures: by Saturday evening, after the 
hurricane Thursday evening, in Virginia, 323,000 of 440,000 
customers without power had their power restored versus in the 
PEPCO region, 205,000 of 531,000 had had theirs restored. The 
following evening, as you know, 86 percent of Virginians who 
had no power had their power restored and 60 percent in PEPCO, 
according to the report in the Washington Post.
    The final issue, and I got so many letters from so many 
different people on the issue of, you know, managing 
expectations and customer relations. What I would like to do is 
just read very briefly excerpts from one as an example of the 
kind of issue I think we have to address going forward, and 
this is a letter from someone who lost their power in Silver 
Spring. It was a live wire situation which I understand should 
have been a priority and must be a priority, and she writes, as 
follows, and I am reading just excerpts:

    PEPCO continually provided us with inaccurate information, 
demonstrating an inability to coordinate between crews and 
phone representatives as well as an inability to track 
information. We lost power mid-afternoon on Thursday, September 
18, 2003. Overnight a tree fell on a power line in a front 
yard, bringing down one power line and breaking another, 
leaving exposed wires. Friday morning, I called PEPCO and was 
told that it would be a high priority to see if the wire was 
live and to repair it. We hired a contractor to remove the tree 
and several others still on our house. On Friday afternoon, I 
provided that information to PEPCO. On Sunday and Monday, many 
residents in our neighborhood had their power restored. 
Tuesday, September 23, PEPCO informed me that they had 
completed repairs and had taken us off the list. Unfortunately, 
this was far from true. The power line was still down; we had 
no power. They asked if we still had a tree on the line and 
they said they could not fix it, the tree was there. I informed 
them again that the tree had been removed. Wednesday, September 
24, a supervisor told me that it looked like the repairs had 
been made. When I told her once again that the line was still 
down, the wire is still exposed and that we had no problem, she 
said that we had been assigned a crew and they would arrive 
during the night. Five hours later on the night of the 25th, no 
crew had arrived. I called again Friday morning, September 26. 
This is more than a week after PEPCO had said they would 
originally come out. I was told there was no information 
regarding when a crew would arrive and no guarantee they would 
make their repairs by 6 p.m. Finally, after losing power, 
finally, Friday morning, exhausted and frustrated, I called 
several local news stations. A reporter from Channel 9 asked to 
interview us and take footage of the live exposed wire. I then 
called PEPCO to alert them the reporter was coming and would be 
arriving in our home. Less than 20 minutes later a PEPCO crew 
arrived on the scene and in less than 15 minutes confirmed that 
the wire was live, completed a temporary repair and restored 
power to the house.

    Now, that is an example. Kind of disconnected between the 
information that, you know, people were giving to PEPCO and the 
information they were giving back. I mean, they would call 1 
day and there seemed to be no ability to keep the information 
on a particular consumer so the consumer felt that their 
particular case was being actually followed, and I recognize 
the fact that you had people calling from all over, but it 
seems to me we have to develop a better system for 
communicating with consumers and I think this is a perfect 
example of it.
    Mr. Sim. Well, yeah, let me try and take your questions in 
order, Congressman, and I appreciate that and I am sure we have 
that issue under investigation right now. With regard to the 
pockets of outages, we have that high on our list and we have 
actually put in a new outage restoration system that will allow 
us to collect that information much more quickly and identify 
those areas much more quickly. That is actually under way, 
right now, to try to find out the pockets and areas and we have 
actually been reviewing those for some time with both public 
service commissions and we think we can find these 
possibilities more quickly and get these possibilities 
restored.
    With regard to the Isabel response, I think the history 
will show when we have these revisions that the crews were 
probably about what were needed. It is very difficult to repair 
a system as wide as the Admiral's with us. We all were on the 
mutual assistance crews beforehand and identified the crews we 
believed necessary for the storm and we had almost 1,000 crews 
on our system, and so I think that when the reviews are done we 
will obviously be looking at a number of crews on the system 
but I really don't believe that this is an issue right now. All 
these crews have to be properly equipped, and they were. We 
never ran out of equipment on these systems. It has to be done 
safely, there have to be people with these crews and we did 
that with no injuries and no fatalities on the system. So I 
think that will be reviewed.
    With regard to overall review of the storm system, I think 
there are clearly three areas, even this early, lessons learned 
you want to look at. One is clearly communication with 
customers. We put in a new outage restoration system that in 
normal times will give each individual customer when they are 
going to be restored based on the crew going out there, 
identifying the damage, putting the equipment in the computer, 
and immediately giving that automatically to the customer. In 
storms like this, that is difficult to do. We have chosen 
because of the damage to tell everybody, giving certainty, 
saying it won't be till Friday. We are trying to give people 
certainty. However, we understand that is not enough in this 
day and age and we were trying to go beyond that. We did some 
things like the Admiral; in fact, I just learned some things 
from the Admiral that he did that we didn't do that I think 
will help. We put outages by zip code on our Web site for those 
that can get access to our Web site; we put up scatter 
diagrams. We also started identifying in the middle of the 
storm the feeders we were working on, so if someone called in 
at least the customer rep could tell them we were working on 
their feeder. Unfortunately, in a storm like this you have no 
idea how long it is going to take to work on the feeder, so 
that will be very, very high on our priority to do that job 
better.
    The other issue we are working very closely with others on 
is the wires down situation. We have a system that works very 
well, but there are two things that are different now over the 
last few years. First of all, there are many, many, many more 
wires on those poles than there ever was before due to open 
access to those wires in there. Now, we are the ones to say, 
when that pole comes down, that wire comes down, you have to 
assume that wire is live, and we tell everyone that. Second, we 
saw more wires down in this storm than we do in a normal year, 
so we need to work with the many, many companies whose wires 
are on that line and even more closely with the emergency 
management agency, and I think during the storm we were. I will 
give you an example in your neighborhood or your county. In 
order to respond to this in the middle of the storm, we ran 150 
wire down complaints one night; 16 of them were ours; 15 of 
them were another electric company and another 120 were other 
wires. Now, we need to get better to make sure that, if we 
haven't been out there, that we make sure it is identified as 
having been out there and so it is a live situation. Then a 
decision has to be made on what happens to those wires. So this 
is a complex area and clearly one we are going to be spending a 
lot of time on.
    And the last one at this point is I think we need to have a 
better dialog on priorities and what the priorities are and 
work with the local communities to figure out what those 
priorities should be going forward. Thank you.
    Chairman Tom Davis. Thank you very much. Thank you, Mr. Van 
Hollen. Let me just--I think we are going to just go quickly to 
members to kind of sum up.
    Let me ask Mr. Sim and Mr. Johnson: In retrospect, could we 
have gotten more crews here. I know they came from across the 
country but looking at the severity of the storm in retrospect, 
were there even more we could have gotten here?
    Admiral Jay Johnson. Mr. Chairman, I think the answer is 
yes, we could have gotten more crews here, but as a practical 
matter I will tell you that managing a force of upwards of 
12,000 people across 30,000 square miles was a pretty sporting 
proposition at the start, so I felt that the phasing of the 
mutual aid and the contractors in was just about right.
    Chairman Tom Davis. You had about all you could handle?
    Admiral Jay Johnson. Yes, sir. So, yes, you could have 
gotten more. I think we had about the right number to handle 
the tremendous task that we had.
    Chairman Tom Davis. Mr. Sim.
    Mr. Sim. I agree with that. There is a safety issue here, 
and even if these people are qualified you do need to have 
people with them. But I would agree with that.
    The other thing I would like to point out is we did 
continue to share crews during this. We added to our people, 
and as we finished we passed people on. So the cooperation 
continued.
    Chairman Tom Davis. Thank you. Ms. Norton.
    Ms. Norton. I can understand that response, but, you know, 
this was Category 3. I am not sure what you would have done 
given your response if it was Category 5, because it took 12 
days for PEPCO with, you know, almost 1,000 people here. So I 
think you have to consider in fact, what kind of management 
grid you need, in case you needed more folks.
    I do want to say to PEPCO, because I spent most of my time 
on Mr. White and again I want to reiterate, Mr. White, each of 
you have a confidence restoring issue, and you may all be 
right, but you got to look at ways that the public can be 
satisfied, and we know as elected officials that the public 
will grind you. Of course, we have to stand for election, so we 
know how to be responsive or at least to act like we are being 
responsive, and I suggest that you need to get help, all the 
help you can get in this regard.
    PEPCO, the communication problem is huge, and I don't know 
the answers. I would like to suggest that when schools close, 
and here we have a very complex region, they run these scrolls 
under the screen, and it is very useful to people, and I tell 
you I got tired of TV because they were telling me the same 
thing. Some of the information was subject to change, it seems 
to me, using e-mail, radio, TV, saying, you know, we are 
reliant on--this is going to change but we may get to X, Y or Z 
area within some time. I often find in constituent services 
that people need to find somebody is paying attention to them. 
Then they of course are willing to cut you some slack, but when 
they can't get some sense of when you are trying to get to them 
is when you really get people pounding on you.
    And finally, let me say to PEPCO, there were complaints 
that we heard about PEPCO trucks going out doing their job but 
unable to do it because of fallen trees yet to be removed. The 
notion of that raises a question about coordination, and I am 
going to have a written question for you on whether or not it 
is possible to deal with that kind of coordination. That is a 
wasted trip for that PEPCO employee and further delay.
    Chairman Tom Davis. Thank you, Ms. Norton. Mr. Moran.
    Mr. Moran. Thank you very much, Mr. Chairman. As we all 
know, most hearings that we have, we never actually hear from 
the direct victims of a situation, and I appreciate your 
insight and understanding in inviting particularly Miss 
Violette to testify from a firsthand perspective of somebody 
who actually was victimized and the leader of a very large 
condominium area.
    I can understand what you were saying in terms of not 
having people on the scene; in other words, people making 
decisions that were removed from what was happening on the 
scene. It happened at the county level, you have told us in 
your testimony, but the supervisor at the scene and the public 
safety people at the scene, they knew exactly what to do 
because they could see what was happening, and apparently that 
is not our responsibility. But our responsibility is what 
happens with Federal resources. Apparently, same thing happened 
at the Federal Government. You are saying that if you had FEMA 
people at the scene, for example, they would have known that 
virtually everybody there had a 9 to 5 job, so going door-to-
door to interview them face to face was not going to be 
effective because they were not going to see their faces. They 
were obviously at work, so one thing FEMA could do is 
understand that if you are contracting with FEMA you have to 
recognize--and your job is to interview people then you are 
going to have to work at night when they are at home if you are 
not going to go to their offices during the day. That seems to 
be an obvious thing, but apparently that isn't being done.
    The second thing is to have a FEMA representative there 
onsite so that they could take questions, they could serve as 
an information clearing house for other Federal resources and 
they could understand what needed to be done when it needed to 
be done. That kind of thing I think is very helpful and I know 
you don't--you are not the kind of person to be particularly 
critical of anybody and appreciative of everybody that helps, 
but I think your observation in that regard was very helpful. 
Is there anything else that you would suggest from a Federal 
response that could have made a real difference?
    Ms. Violette. I think, after the fact now, looking back, 
you know, something has to be done, I think, like you said, 
Congressman Moran, around the area, around the Potomac area, 
about the flooding issue. That definitely has to be something, 
because if we have another storm of this magnitude--I mean, we 
are going to get walloped again. There is only so much we can 
do with our physical plant and we definitely have to look at 
that issue, and I would ask that you do whatever you can with 
the State for addressing not only us but with Old Town 
Alexandria, because they are obviously victimized by it, too.
    Mr. Moran. So we can't just be reactive every time a storm 
comes; we have to be proactive and figure out how to mitigate?
    Ms. Violette. Exactly. We are looking at things with our 
own association, but there is only so much we can do.
    Mr. Moran. Understand. That is a very thoughtful response. 
Thank you, Miss Violette.
    Chairman Tom Davis. Thank you. Any other questions?
    Mr. Van Hollen. No questions, just a brief comment.
    Chairman Tom Davis. Yes.
    Mr. Van Hollen. First, very briefly, for Mr. White: We 
talked today about closing down Metro for a certain period of 
time. In the long term, as a region, we have to make sure we 
make a large investment in Metro, just to make sure that it 
doesn't break down and people are without service. I know that 
is a concern to you. You talked about $1.5 billion over a 6-
year period of investment. I know the chairman of this 
committee shares the concern of all of us in this region in 
making sure Metro is adequately funded, and I look forward to 
working with you to make sure that the State of Maryland meets 
its commitments, because I feel there is not enough priority in 
the State of Maryland given to that, and we are talking about 
potential breakdowns if we don't make that investment.
    Just in closing, again, Mr. Sim, I would urge you, as part 
of this investigation you are launching with an outsider, that 
you encourage him to take seriously the testimony and the 
statements of the consumers. Again, I will provide to you and 
your office the letters that I have; they are very thoughtful 
letters. I think we can all learn from some of the suggestions 
of people who have been directly impacted, so I urge that he 
not just talk with the experts but really go out in the field 
and talk to people who have personal experience with the 
problem and have some very creative ideas as to how we can 
address it.
    Mr. Sim. I believe he intends to have some community 
meetings in all three jurisdictions.
    Chairman Tom Davis. Thank you, and we appreciate your 
sharing your insights with us, all of us. Mr. White, just one 
last question: What was the damage Metro incurred in the 
snowstorm from keeping trains on the track too long?
    Mr. White. In the snowstorm, I don't have a direct answer 
on that one. What it was was the extra amount of time that it 
basically took to bring our trains back into service, so, I 
mean, we spent a considerable amount of time.
    Chairman Tom Davis. Maintenance.
    Mr. White. And extra effort in terms of overtime to get the 
trains back into service.
    Chairman Tom Davis. And you didn't lose any this time, did 
you?
    Mr. White. No, we didn't lose any of our equipment. We were 
largely ready for rush hour service on Monday. Obviously, we 
had extra expense with the storm and lost revenue with the 
storm, too.
    Chairman Tom Davis. Thank you. I just want to thank all the 
witnesses for taking the time from your busy schedules to be 
with us today. As you learn lessons from this, if you could 
forward them to us, it would be helpful for us, and the meeting 
is adjourned.
    [Whereupon, at 12:43 p.m., the committee was adjourned.]
    [The prepared statement of Hon. Elijah E. Cummings and 
additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T1135.073

[GRAPHIC] [TIFF OMITTED] T1135.074

[GRAPHIC] [TIFF OMITTED] T1135.075

[GRAPHIC] [TIFF OMITTED] T1135.076

[GRAPHIC] [TIFF OMITTED] T1135.077

[GRAPHIC] [TIFF OMITTED] T1135.078

[GRAPHIC] [TIFF OMITTED] T1135.079

[GRAPHIC] [TIFF OMITTED] T1135.080

                                   - 

</pre></body></html>
